<html>
<title> - FEMA'S RESPONSE TO THE ROCKFORD FLOOD</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                 FEMA'S RESPONSE TO THE ROCKFORD FLOOD
=======================================================================

                             FIELD HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                   WASHINGTON, DC, NOVEMBER 28, 2006

                               __________

                           Serial No. 109-65

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
31-095                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON SMALL BUSINESS

                 DONALD A. MANZULLO, Illinois, Chairman

ROSCOE BARTLETT, Maryland, Vice      NYDIA VELAZQUEZ, New York
Chairman                             JUANITA MILLENDER-McDONALD,
SUE KELLY, New York                    California
STEVE CHABOT, Ohio                   TOM UDALL, New Mexico
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
TODD AKIN, Missouri                  ENI FALEOMAVAEGA, American Samoa
BILL SHUSTER, Pennsylvania           DONNA CHRISTENSEN, Virgin Islands
MARILYN MUSGRAVE, Colorado           DANNY DAVIS, Illinois
JEB BRADLEY, New Hampshire           ED CASE, Hawaii
STEVE KING, Iowa                     MADELEINE BORDALLO, Guam
THADDEUS McCOTTER, Michigan          RAUL GRIJALVA, Arizona
RIC KELLER, Florida                  MICHAEL MICHAUD, Maine
TED POE, Texas                       LINDA SANCHEZ, California
MICHAEL SODREL, Indiana              JOHN BARROW, Georgia
JEFF FORTENBERRY, Nebraska           MELISSA BEAN, Illinois
MICHAEL FITZPATRICK, Pennsylvania    GWEN MOORE, Wisconsin
LYNN WESTMORELAND, Georgia
LOUIE GOHMERT, Texas

                  J. Matthew Szymanski, Chief of Staff

          Phil Eskeland, Deputy Chief of Staff/Policy Director

                  Michael Day, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                               Witnesses

                                                                   Page
Morrissey, The Honorable Lawrence J., Mayor, City of Rockford, 
  Rockford, IL...................................................     3
Jaeger, Ms. Jennifer, Community Service Director, Human Services 
  Department, City of Rockford, Rockford, IL.....................     8
Smith, Mr. Dave, Chief, Bureau of Planning, Illinois Emergency 
  Management Agency..............................................    10
D'Araujo, Major General John R., Jr., Director, Recovery 
  Division, Federal Emergency Management Agency, Department of 
  Homeland Security..............................................    25
Buikema, Mr. Edward, Region V Director, Federal Emergency 
  Management Agency, Department of Homeland Security.............    49

                                Appendix

Opening statements:
    Manzullo, Hon. Donald A......................................    60
Prepared statements:
    Jaeger, Ms. Jennifer, Community Service Director, Human 
      Services Department, City of Rockford, Rockford, IL........    62
    Smith, Mr. Dave, Chief, Bureau of Planning, Illinois 
      Emergency Management Agency................................    66
    D'Araujo, Major General John R., Jr., Director, Recovery 
      Division, Federal Emergency Management Agency, Department 
      of Homeland Security.......................................    72
    Buikema, Mr. Edward, Region V Director, Federal Emergency 
      Management Agency, Department of Homeland Security.........    72
Additional material:
    Statements by Rockford victims...............................    80
    Submittal of Rockford Register Star article, ``Flood victim 
      to FEMA: We still feel helpless''..........................    94

                                 (iii)


         FIELD HEARING ON FEMA'S RESPONSE TO THE ROCKFORD FLOOD

                              ----------                              


                       TUESDAY, NOVEMBER 28, 2006

                   House of Representatives
                                Committee on Small Business
                                                     Washington, DC
    The Committee met, pursuant to call, at 6:30 p.m., in 
Auditorium of Lincoln Middle School, 1500 Charles Street, 
Rockford, Illinois, Hon. Donald A. Manzullo [Chairman of the 
Committee] presiding.
    Present: Representative Manzullo.
    Chairman Manzullo. The Small Business Committee of the 
United States House of Representatives will come to order. We 
appreciate, first of all, Lincoln Middle School for the use of 
these premises. My wife is an alumnus here at Lincoln. First of 
all, can you all hear the amplification system? Is it clear? 
You can't? All right, let's experiment with it.
    Is this better? All right, okay. Now if at any time during 
the testimony you cannot hear, just stand up and say you can't 
hear. All right? Don't give me a half an hour of silence, don't 
be bashful about it.
    I want to introduce, from Senator Durbin's office, Sarah 
Nelson. Sarah, do you want to stand up? I appreciate your 
coming. And from Senator Obama's office, Seamus Ahearn. Seamus, 
we appreciate your coming. I talked to both Senators this past 
week. They expressed their regrets that they could not 
participate in the hearing this evening.
    I also want to thank the witnesses from FEMA who came out 
from Chicago and from Washington, D.C. in order to be present 
at this hearing. We appreciate your participation.
    The order this evening is to have a three and a half minute 
video of the flood. Then Mayor Morrissey will speak. And then 
Jennifer Jaeger, the Community Services Director of Rockford 
will speak; then Dave Smith, who is the IEMA Bureau Chief for 
Disaster Assistance. Then we're going to have the testimony of 
seven or eight of the disaster victims who are going to speak. 
Then we're going to have the testimony of General Jack 
D'Araujo. He's given me permission to call him General.
    Is that okay, General, if I can't get that last name 
correct?
    Gen. D'Araujo. Whatever you want.
    Chairman Manzullo. Whatever is acceptable to you. He is the 
FEMA Director of Recovery Division. And then we're going to 
have questions that come from Mayor Morrissey and myself. And 
then we're going to have an open microphone for the disaster 
victims.
    I would encourage those of you who have been impacted by 
this flood to consider testifying. One of the reasons, in fact, 
the main reason for this hearing is so the folks from FEMA can 
hear first hand the nature and the extent of the injuries 
suffered and the damages suffered by the people here in 
Rockford. I talked to several of you before this hearing began. 
You've got some horrific stories. You may be a little bit timid 
about testifying, but if during the course of that open mic, 
you want to testify, please do so. It's not like Perry Mason, 
where somebody is grilled. That's not going to happen. It's 
just an opportunity to tell exactly what happened to you.
    The massive flooding on Labor Day in Rockford affected 768 
homes, and initially displaced roughly 1,400 residents. The 
City of Rockford and charitable organizations have contributed 
more than $2 million to the recovery effort. However, two 
months have passed since the flood, and the 213 damaged homes 
are still not repaired. In addition, City and State officials 
estimate that the remaining uninsured and underinsured homes 
will require more than $5.5 million in additional disaster 
assistance. Unfortunately, this is much more than the City and 
State say they are able to provide. Without immediate federal 
assistance, many families affected by the flood face the 
prospect of a winter without proper heat and water. In fact, 
tonight I was advised of one senior by the name of Beverly 
Hanson who is unable to be here this evening. She can't afford 
to fix her furnace, and she's heating the immediate area where 
she is living with a space heater. Her situation is not 
isolated.
    Shortly after the labor Day flood, Rockford Mayor Morrissey 
and Illinois Governor Blagojevich declared Rockford a city and 
state disaster area. The Governor then appealed to the 
President and FEMA for a major federal disaster declaration. A 
federal disaster declaration could provide individual 
assistance of up to $28,200 to repair damaged homes, and to 
replace lost personal property.
    On October 20, the President and FEMA denied the Governor's 
request for major federal disaster declaration, claiming that 
the disaster did not rise to the level necessary to warrant 
federal intervention. Because of significant discrepancies 
between the damage estimates FEMA used to deny the disaster 
declaration, and the actual damage figures collected by the 
City and State, the State of Illinois has appealed this 
decision. To date, there has been no decision on the appeal.
    I trust this hearing will allow the President and FEMA to 
make a more informed decision on Governor Blagojevich's pending 
appeal for federal disaster relief. I also hope this hearing 
will highlight the need for continued improvement in the 
federal disaster declaration process.
    I look forward to the testimony of the witnesses. Do you 
want to go ahead and start the video?
    [Chairman Manzullo's opening statement may be found in the 
appendix.]
    The Video Narrator. At about 2 p.m. on Labor Day 2006, 
there was an extraordinarily heavy rainfall in the City of 
Rockford, Illinois. According to the National Weather Service, 
over five inches of rain poured into the City in the first two 
hours. Almost eight inches of rain fell over the entire three-
hour storm. The torrential rainfall quickly flooded homes, 
streets, and businesses. The flash flood overflowed creeks and 
filled storm sewers and drainage areas past their capacity.
    The relentless water collapsed foundations, swept away 
vehicles, and moved homes off their concrete slabs. The raging 
force of the water broke low-level windows, quickly filling 
basements with flood waters. In less than 45 minutes, the water 
levels were so extreme that emergency calls for rescue poured 
into the 911 emergency system. Over 250 calls for emergency 
assistance were answered by the time the flood had crested.
    The Rockford Fire Department rescued over 130 people from 
the flood waters, leaving homeless residents--
    [End of video audio.]
    Chairman Manzullo. We commend you for your leadership and 
working hard with the people of Rockford and we look forward to 
your testimony.

 STATEMENT OF THE HONORABLE LAWRENCE J. MORRISSEY, MAYOR, CITY 
                OF ROCKFORD, ROCKFORD, ILLINOIS

    Mr. Morrissey. Thank you very much, Congressman. I'd like 
to start by recognizing some of our City of Rockford Aldermen 
who have been with us working on this disaster since its start: 
Alderman Jeff Holt is here, Alderman Frank Beach, Alderman Doug 
Mark, and I think Pat Curran was also going to be able to make 
it, gentlemen, and to our entire City Council, I thank you for 
working with us through this entire disaster recovery process.
    I'd also like to start by thanking Congressman Manzullo, 
and Senators Durbin and Obama for their support of Rockford's 
application for federal disaster assistance. I also thank the 
FEMA officials that are here tonight for accepting Congressman 
Manzullo's invitation to hear our citizens tell their story. I 
would like to thank Governor Blagojevich, and State IEMA 
Director Bill Burke, and Dave Smith who is with us this evening 
for their continuing supporting of our application and our 
appeal. I would also again publicly thank the employees of our 
City who were there in the first instance, and continue to be 
there today: the firemen, the policemen, the folks from human 
services, the engineers and inspectors, and all those have who 
have helped respond to this disaster. And I thank the Red Cross 
and Salvation Army and the countless other community volunteers 
who have come to the aid of this community to provide 
emergency, temporary assistance. But as I will discuss this 
evening, despite all of those community efforts, despite what 
we have done as a city, our efforts fall far short of meeting 
the needs of many of those folks that are here tonight, and the 
names of which you'll see on these boards around us. Those are 
the names of the uninsured, the folks that have simply been 
unable to meet the dollars necessary to repair their homes and 
bring them back to recovery. Much work is left to be done.
    On September 4th, our City was battered by eight inches of 
rain in approximately two hours. Hundreds of homeowners and 
families were displaced due to the rising floodwaters. Most of 
those families, unfortunately, still find themselves without 
safe, permanent housing. Millions of dollars in repair work has 
yet to be completed.
    We believe that FEMA's initial process of evaluating our 
claims from this community in seeking disaster, major disaster 
declaration, failed. We, as a city, have been working with the 
State to do all that we can to help these families. But to 
date, FEMA has refused our requests for aid to those families 
most in need.
    Today we present, along with our appeal that has been 
separately filed, corrected facts which we believe justify a 
major disaster declaration giving our citizens a chance for 
access to individual assistance funds.
    Unfortunately, on October 20, 2006, FEMA Director Paulison 
denied Governor Blagojevich's request for federal assistance 
for our Labor Day Flood. Again, through the support of the 
Governor, we have recently filed an appeal brief, and that 
brief is--that appeal is currently pending.
    Now when a FEMA declaration is sought by a Governor under 
the Stafford Act, we're very familiar of the primary factors 
that are evaluated in making a recommendation to the President. 
I'm going to talk about those factors this evening. They 
include the concentration of damages, trauma, special 
populations, voluntary agency assistance, the presence of 
insurance, and the average amount of individual assistance 
available by the State. Based on these factors, which are 
addressed in our appeal brief, our Rockford homeowners have met 
the elements of the Act, and deserve a major disaster 
declaration, and the opportunity to apply for individual 
assistance grants.
    First, regarding the concentration of damages. The 
neighborhoods of Rolling Green, and Harmon Park, and Churchill 
Park suffered the most concentrated and extensive damage. 
Together, these two areas account for more than 90 percent of 
the damage suffered in this storm. Contrary to the October 7, 
2006 Regional Disaster Summary, which was completed by FEMA, 
and to our knowledge was part of the basis for the 
determination, the total number of residences with major and 
minor damage, and those with affected status, ultimately was 
768 homes. In fact, this represents a revised figure of 460 
residences affected by the flood, which is a 500 percent 
increase over the 84 residences originally marked as affected 
by the flood.
    Why were these and other original FEMA estimates low? We 
believe, well, we know, that the FEMA officials spent 
approximately a day and a half in Rockford counting damaged 
homes. Frankly, from the start, many of us felt that they were 
in a rush to get in and get out, and the process was determined 
to reach an outcome that they had already anticipated. At a 
certain point, it was told to us local officials to stop 
counting homes affected by the flood damage. They ultimately 
packed their bags and left. However, we did not stop counting. 
And I think the spreadsheets you see represented up here on 
stage is a representation of that. That's why we believe our 
estimates are right, and the original estimates were wrong. And 
that's why we believe FEMA's original process failed Rockford.
    The October 7, 2006 Disaster Summary also incorrectly 
states that 600 residents were initially displaced as a result 
of the flooding. Today, we know that the correct total is much 
closer to 1400 residents. The Disaster Summary also erroneously 
indicates that 75 percent of the properties that sustained 
flood damage were single family homes and owner-occupied. 
Today, we know that 90 percent of the properties that sustained 
damage were owner-occupied single family homes. These 
significant discrepancies demonstrate that the original FEMA 
process again failed Rockford.
    The second factor under the Stafford Act has to do with 
trauma. As you saw from the video and the photographs we have 
provided, residents of both Churchill Park and Rolling Green 
had to be rescued from their homes and cars to save immediate 
life and limb. The Rockford Fire Department rescued 130 persons 
from the flood. Four citizens were rushed to the emergency 
room. Others were aided by volunteers. There was a large-scale 
disruption of normal community functions and services. Two 
hundred and fifty-three calls for emergency assistance took 
place. Many families are still displaced, or without electrical 
power or heat. For those individuals, the trauma from this 
disaster continues.
    The third factor has to do with special populations. The 
neighborhoods hit hardest by this flood are home to many people 
who simply will not recover from this flood without significant 
government assistance. One in five of the residents from these 
affected neighborhoods are seniors on fixed incomes. More than 
300 of the city's residents over 85 years of age live in the 
affected areas. While the Regional Disaster Summary indicated 
an elderly population of 13 percent, again we know now the 
population is 20 percent in the affected area. These senior 
citizens will experience difficulty even in doing minor repairs 
and restoration of their homes.
    In addition to those seniors on limited incomes, the area 
is home to some of the highest poverty rates in the city. In an 
actual survey done by our Human Services Department, of 100 
flood victim families, we know that our poverty rates are well 
beyond the originally estimated 12 to 18 percent from census 
data. The poverty rate that we know to be in the area for 
single individuals is 20 percent, and families of two or more, 
25 percent.
    This corrected data clearly demonstrates that we have a 
high concentration of seniors and low income individuals who 
simply cannot repair the flood damage to their homes without 
FEMA's help.
    The fourth factor has to do with voluntary agency 
assistance. Again, as we said before, the Rockford Fire 
Department transported 130 residents to temporary shelter at a 
local church following the flood. Many of those folks are here 
this evening. The Red Cross and Salvation Army both provided 
immediate assistance to those flood victims. On October 7th, 
over a month after the flood, 40 people, we have documented, 
were still living in emergency shelters. Unfortunately, the 
October 7th Regional Disaster Summary erroneously reports that 
we had no individuals still living in emergency shelter. Today, 
we still have 10 families in emergency shelters as a result of 
the flood damage, well over two months since the incident.
    The goal of our short-term assistance from this community 
was to provide a safe place for residents while they waited for 
assistance from insurance companies or from FEMA to help repair 
homes and move on with their lives. Unfortunately, many 
homeowners have moved back into their homes without repairing 
critical life/safety systems. They are living in unsafe 
environments. Despite support from local volunteer efforts, 
this community has simply been unable to meet the needs of 
these devastated families. I know as a Councilman and as a 
Mayor, it's one of the hardest things that we have to do to 
look into the eyes of our people in need and to know that we 
simply are unable to meet the needs that they have,
    The fifth factor has to do with the presence of insurance. 
The October 7th Regional Disaster Summary said that 17 percent 
of the affected homeowners had flood insurance coverage. In 
reality, only 10.87 percent of those homeowners had insurance. 
Only 30 homeowners who sustained major or minor damage had 
flood insurance. And just 11 percent, only six homeowners, of 
the 67 sustaining major damage, had flood insurance.
    Just three to eight percent of homeowner insurance 
companies have approved any claims at all. In addition, 
information about payments already made through flood insurance 
demonstrates that the estimates made by the City of Rockford in 
our FEMA request were remarkably lower than actual costs. We 
estimated $42,000 as an average repair cost to get a condemned 
home back into occupancy shape. According to actual recorded 
payments through flood insurance that was available in a 
limited amount, homes classified as major damage have actually 
required over $61,000 to repair. And just six percent of the 
homes with major damage have actually requested a building, 
mechanical, or electrical permit, which, by the way, we've 
waived the fees for all of those permits, but that corresponds 
with the lack of insurance covering those homes. And what it's 
evidence of is that the recovery simply isn't happening.
    This flood disaster, which I'm sure the officials from FEMA 
are aware of this, a flood disaster is very different from a 
tornado or a fire, which would typically be covered by an 
average homeowner's policy. The lack of flood insurance in this 
disaster corresponds with the fact that this particular flood 
damage went well beyond identified floodways, and impacted poor 
and elderly populations. And we ask that FEMA take this new 
information into account when it examines our appeal.
    The final factor, the sixth factor, has to do with the 
amount of individual assistance provided by the State of 
Illinois. But despite suggestions or hopes to the contrary, 
State IEMA officials have indicated to us that the State of 
Illinois is unable, by law, to provide direct assistance to 
families in need. Even if the State were legally allowed to 
provide such individual disaster assistance, the fact of the 
matter is, Illinois has posted a budgetary deficit in the last 
four years. Last year, the deficit was $474 million. Some argue 
the state's deficit is much greater, perhaps in the billions. 
The State simply is not positioned to provide the needed help 
we have asked for, and believe me, we've asked for it.
    Moreover, the City does not have local funds to meet the 
needs of these desperate families. Rockford has the unenviable 
position to be one of only 8 of 102 counties in the State of 
Illinois that is on the State's poverty warning list. We have a 
map behind me to the left with those figures. We have one of 
the highest crime rates and poverty rates, unfortunately, in 
the State of Illinois. Our property taxes are also among the 
State's highest, while we lag behind the State and the nation 
in economic recovery. The City has already spent over $1.2 
million on overtime costs, public infrastructure repair, and 
temporary emergency shelter assistance to our residents related 
to this disaster. We unfortunately cannot help in the manner 
that these families need, which is, however, available through 
FEMA.
    I'd also like to mention a few points about hazard 
mitigation. In order to eliminate the continual flood damage 
and expensive recovery efforts for local, state, and federal 
taxpayers, we are suggesting that we work together under the 
Disaster Mitigation Act of 2000, and suggest the purchase of 
residences in the Churchill Park area and certain properties in 
Rolling Green. We believe the fair market of these purchases 
would be approximately $7.1 million.
    From the moment this disaster struck, we've attempted as a 
City to work with FEMA officials in a cooperative manner, and 
while I can certainly understand that the process is difficult, 
it should not be adversarial. It has seemed, however, that at 
times, FEMA has been working to defend a denial, rather than 
get all of the facts that might support a positive 
determination.
    Even with our attempt to appeal the original decision, we 
were originally told that we could not have the basis for 
FEMA's denial other than a cursory reference to the Stafford 
Act, and a statement that we failed to meet its elements for 
assistance. We were told that the rest of the information was 
likely privileged. We then had to enlist the help of our 
Congressman and Senators, and submit FOIA requests to try to 
piece together FEMA's basis for its original denial of our 
application. The lack of information shared by the federal 
government for the basis of its denial of relief makes it 
difficult for a poverty stricken city with limited resources to 
make an effective appeal for disaster declaration assistance. 
Despite the lack of a complete record provided to us, however, 
we have demonstrated clearly why hundreds of Rockford families 
deserve individual assistance grant opportunities from their 
federal government. The original facts that FEMA had were 
incorrect, and we've now had an opportunity to provide 
corrected information.
    FEMA officials relied upon the Regional Disaster Summary in 
their determination of the City of Rockford's eligibility for 
flood assistance. That summary contains several critical, but 
inaccurate, statements of fact. The Governor and I and our 
citizens here tonight urge FEMA to re-examine our request in 
light of those discrepancies. We request that the President and 
FEMA grant the State of Illinois' appeal for individual 
assistance, as well as hazard mitigation. Using the closed 
claims paid to NFIP policyholders as a guide, we estimate that 
the remaining uninsured and unrepaired homes, those families 
which you see represented on these spreadsheets, would require 
approximately $5.5 million in flood disaster assistance. 
Furthermore, we request participation in the hazard mitigation 
program to prevent future disasters.
    FEMA does not have to fail Rockford. It is not too late. We 
pay federal tax dollars just like any other community in this 
country. We urge the federal government to reverse its denial 
decision, and grant federal disaster assistance for Rockford 
homeowners. There is abundant evidence of a specific traumatic 
event that has devastated a unique population of elderly, poor, 
and uninsured residents, whose needs simply cannot be met with 
local and state resources. We have met the elements of the 
Stafford Act. We thank you for your consideration. We please 
ask that you grant our appeal. Thank you.
    (Applause.)
    Chairman Manzullo. Thank you very much, Mayor Morrissey.
    Our next witness is Jennifer Jaeger, Community Service 
Director for the City of Rockford Human Services Department..
    Jennifer, you might want to pull that mic as close to you 
as possible.

 STATEMENT OF JENNIFER JAEGER, HUMAN SERVICES DEPARTMENT, CITY 
                OF ROCKFORD, ROCKFORD, ILLINOIS

    Ms. Jaeger. Good evening, everybody. My name is Jennifer 
Jaeger, and I am the Community Services Director for the Human 
Services Department. Our role in this situation was to do 
follow-up recovery and assistance after Salvation Army and Red 
Cross provided immediate assistance. The flash flood that 
occurred on September 4 is one of those situations where we 
were asked to provide follow-up assistance.
    On September 4, I received a call from Mayor Morrissey 
informing me of the need to have Community Services staff 
respond to Hallstrom Center in response to a flash flood 
occurring in the area. I dispatched staff to the Hallstrom 
Center, and also contacted the Salvation Army for assistance 
with food service for those evacuated due to the flood. When 
staff arrived at the Hallstrom Center, they found over a 
hundred citizens evacuated. The American Red Cross was on site, 
converting the Center into a temporary shelter for evacuees. 
Most of the residents arriving at the Center were confused, 
wet, and definitely shocked about how quickly this flood had 
overwhelmed them in their homes. That evening, 40 residents 
stayed at the shelter, with the others able to find temporary 
housing with friends or family.
    During the next two weeks, Community Services staff 
continued to provide support at the Hallstrom Center, and we 
also began accompanying the City of Rockford Building 
Department to inspect dwellings, especially those condemned 
where the residents needed relocation.
    As a point of contact for flooded residents, the Human 
Services Department received constant calls from residents who 
could not return to their homes, and from those who had 
returned to their homes, but who were overwhelmed by the clean-
up and repair tasks facing them. Local churches assisted where 
they could, helping with cleaning mud out of basements and 
providing mattresses for families who needed to replace theirs 
from either water or mold damage. I do want to mention mold 
damage, because it is a consistent factor we are hearing from 
residents about their homes. Even with the water removed from 
the basements, they have mold way beyond the basement level of 
their homes at this point. The Human Services Department has 
been assisting as much as possible with relocation for renters, 
temporary housing for homeowners, and volunteer assistance 
where possible.
    One of the major concerns we heard from citizens as they 
tried to recover from the flood was the denial of claims from 
insurance companies. The majority of residents, 89 percent, did 
not have flood insurance, and since the damage was flood 
related, homeowner's insurance was not liable for the damage. 
In an effort to assist residents, the State of Illinois 
Department of Professional Regulation, Insurance Division came 
to Rockford for two days to meet with homeowners and assist 
them in understanding their policies. I wanted to mention that 
because we do appreciate them coming to town to assist those 
homeowners who were able to be assisted with their insurance.
    Following the first assessment by FEMA and IEMA on 
September 7th through 9th, Mayor Morrissey expressed a concern 
that the damage assessment did not accurately reflect the 
actual damage incurred. The City of Rockford's Human Services 
Department, Building Department and Fire Department began the 
process of reassessing the damage to obtain a more accurate 
damage summary. On October 5th and 6th, FEMA and IEMA, along 
with City of Rockford Building and Fire inspectors conducted a 
follow-up damage assessment with the result that 67 homes were 
identified as having major damage, and 239 homes were 
identified as having minor damage. At this time, FEMA chose to 
not count the number of affected homes, assuring us that it 
would not be a consideration in their decision. However, you 
should be aware that the number of affected homes is more than 
500 percent greater than what we originally reported.
    Attached to my testimony is a spreadsheet that reflects the 
current status of our citizens and their properties. That's 
also the information displayed on these boards here. The cost 
estimates that we've included for repairs come from local trade 
unions and the experience of our Building Department. However, 
it is likely that our estimates may be too low. We estimated 
about $40,000 for a condemned home, and we've had people come 
in as high as $61,000.
    Unfortunately, much of the work to be done is beyond the 
scope of our resources or the abilities of volunteers. The 
assistance residents need in repairing the mechanicals and 
electrical wiring in their homes, replacing or repairing 
foundations, and replenishing personal financial resources they 
have exhausted in their efforts to repair their homes. The 
clearest evidence of the need for federal assistance is the 
number of residents who have not been able to recover from this 
flood, more than 90 percent of you. The reason for this lack of 
recovery is simple. Neither the residents, city or state has 
the resources necessary to address the level of damage caused 
by the Labor Day Flood. Because of this, we have citizens who 
fall into several categories: those lucky 63 families who have 
been able to repair their homes completely and returned to them 
at this point, those 30 we've relocated permanently, those 10 
families living in temporary housing while waiting for repairs 
to their homes, and those who are living in damaged and 
dangerous homes. Those who are in temporary housing must some 
day return to their homes or face the difficult decision of 
abandoning their homes because they cannot afford to repair 
them. For those 203 families residing in damaged or dangerous 
homes, we are very concerned about their safety and the safety 
of their families as we know that there is little we can do to 
help except continue to ask FEMA to reconsider their decision 
regarding assistance.
    Thank you.
    (Applause.)
    [Ms. Jaeger's testimony may be found in the appendix.]
    Chairman Manzullo. Thank you, Jennifer.
    Our next witness is Dave Smith, the IEMA Bureau Chief for 
Disaster Assistance and Preparedness.
    Dave?

STATEMENT OF DAVE SMITH, BUREAU OF PLANNING, ILLINOIS EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Smith. Congressman Manzullo and Mayor Morrissey, I 
appreciate the opportunity to learn more from those that were 
most severely impacted by the flood.
    My name is Dave Smith, and I am the Chief of the Bureau of 
Disaster Assistance and Preparedness for the Illinois Emergency 
Management Agency. After a disaster event has occurred, I am 
responsible for coordinating with the Federal Emergency 
Management Agency to provide any supplemental assistance that 
may be required from federal agencies to aid homeowners, 
renters, businesses, and units of government in their recovery 
from the impact of the event. The flash flood that occurred on 
September 4, 2006 in the City of Rockford and portions of 
Winnebago County is one of those events.
    My involvement with the Labor Day flooding began on 
Wednesday, September 6. Three IEMA staff and I traveled to 
Rockford to make a general assessment of the flood damage and 
determine the type of disaster assistance that may meet the 
needs of the homeowners, renters, businesses, and units of 
government in the disaster area. Throughout the day on 
Wednesday, we toured the most severely impacted areas in 
Rockford along the Keith Creek drainage area. After the tour, I 
recommended to William C. Burke, Director of IEMA, that we 
request FEMA join us in a more detailed assessment of the 
damages. Director Burke agreed, and I contacted the FEMA Region 
V office to coordinate the damage assessment. When FEMA 
conducts a damage assessment jointly with a state, it is known 
as a Preliminary Damage Assessment, or PDA.
    The purpose of the PDA is to collect information on the 
disaster damage, and to verify the damage information that had 
been initially collected by local emergency management 
officials. Information collected during the PDA serves as the 
basis for determining if the Governor should request Federal 
disaster assistance. The PDA was scheduled to begin on Friday, 
September 8, and continue until all damages identified by local 
officials had been viewed.
    On Thursday, September 7, Governor Blagojevich declared 
that a disaster exists in Winnebago County. The purpose of the 
disaster declaration was to authorize State agencies to provide 
assistance in the disaster area, authorize the reassessment of 
disaster damaged real property, and make possible a request for 
Federal assistance if determined necessary. I explained the PDA 
process and the possibility of requesting Federal disaster 
assistance to Rockford officials in the Mayor's conference room 
on Thursday afternoon. I described the importance of the local 
official's role of identifying the damaged areas during the 
PDA, and ensuring that the PDA team was aware of the areas 
impacted by the flash flood.
    The PDA was completed approximately 8 p.m. on Saturday, 
September 9. Personnel from the Winnebago County Sheriff's 
Department and the Rockford Fire Department accompanied the 
Federal and State damage assessment teams throughout the two-
day assessment. City and county officials lead the damage 
assessment teams on a tour of all the areas that were damaged, 
and had been reported or identified. A PDA is a team effort 
involving state and local and federal officials. During the 
PDA, the function of local officials is to make sure that the 
PDA team is aware of all damaged areas. The function of the 
state and federal members of the team is to determine the 
impact of the disaster, and identify state and/or Federal 
disaster assistance programs that can meet the needs of the 
people and the community affected by the disaster. Most 
important is the fact that the PDA is a joint effort involving 
local, State and Federal officials, and therefore ensures that 
the damages are viewed by all levels of government at the same 
time and under the same conditions.
    On completion of the PDA, the State reviews the information 
collected. A determination on the need to request Federal 
disaster assistance is based upon the unmet needs of those 
impacted by the disaster, and the availability of disaster 
assistance through State and Federal disaster assistance 
programs. It was determined that there were no State programs 
that could provide the necessary disaster recovery assistance 
to the homeowners, renters, and businesses impacted by the 
flash flood. On September 11, 2006, Governor Blagojevich 
requested Federal disaster assistance for the purpose of aiding 
the people who incurred damages to their homes, personal 
property and businesses as a result of the Labor Day flash 
flood.
    It is difficult to assess basement flooding following a 
flash flood. The nature of a flash flood is that the water 
rises and recedes rapidly. Without the homes sitting in the 
floodwater, it is difficult to identify homes with damage that 
is not visible from the outside. The total impact of a flash 
flood that causes basement flooding may not become totally 
apparent until days or even weeks following the event. Many 
times, the only visible sign that a home has been damaged is 
the personal property that appears on the street as trash 
needing to be removed. This may not occur in the days 
immediately following the flash flood, but eventually, the 
destroyed property will likely appear upon the curb.
    During the month of September, the City of Rockford 
collected additional disaster damage from homeowners and 
renters as they began to discover the real affect of the 
flood--the flooding had on their property. In an effort to 
obtain new information that accurately reflected the damages 
throughout the City, IEMA and FEMA conducted an additional 
damage assessment at the City's request on October 5 and 6. 
Rockford officials, IEMA and FEMA staff conducted this follow-
up damage assessment jointly in the same manner as the original 
PDA. All involved agreed that the revised damage assessment 
information was the best information available at that time 
using the PDA criteria for assessing residential damage.
    On October 20, 2006, FEMA denied the Governor's request for 
major disaster declaration, which would have provided Federal 
disaster assistance to the people in Winnebago County suffering 
from the Labor Day flash flood. The denial letter indicated 
that damage to the private sector in the City of Rockford and 
portions of Winnebago County was not of such severity and 
magnitude as to be beyond the capabilities of the State and 
affected local governments.
    On October 24, 2006, Governor Blagojevich appealed the FEMA 
denial of disaster assistance. The appeal was based upon 
additional information provided by the City of Rockford, and 
the fact that there are no current programs administered by 
State agencies designed to provide the needed disaster relief. 
On November 20, 2006, William C. Burke, IEMA Director, provided 
additional information as submitted by the City of Rockford to 
support the appeal of the disaster declaration denial.
    The State maintains a disaster relief fund that can be used 
to pay the expenses of State agencies during disaster response. 
The State Disaster Relief Fund cannot be used to provide 
private relief to persons sustaining property damage as the 
result of a disaster. Although homeowners are encouraged to 
maintain flood insurance, some do not. If a major disaster was 
declared, some individuals, families and businesses could 
receive assistance from the Small Business Administration low 
interest loan program, and others would qualify for grants to 
repair their disaster damaged home or replace essential 
personal property, even though they do not maintain flood 
insurance. Without Federal disaster assistance or insurance 
proceeds, the people most severely impacted by the disaster 
would have to rely on private disaster relief organizations for 
the needed assistance.
    During the weeks following the flash flood disaster, IEMA 
has maintained close and frequent contact with the City of 
Rockford emergency management officials. Likewise, IEMA will 
continue to work with the City of Rockford to identify cost 
effective flood mitigation projects that could potentially 
reduce future flood damage in the areas most severely impacted 
by the Labor Day storms and flooding.
    Thank you for allowing me to participate in the Committee's 
hearing.
    (Applause.)
    [Mr. Smith's testimony may be found in the appendix.]
    Chairman Manzullo. Thank you. Now we have an opportunity to 
hear from several of the victims that were involved in the 
flood. I have a list here, and we'll go in this order: Roger 
McVay, Janeal Lantz, Brian Willis, Lourdes Macias, Reva 
Goettsch, Livetta Houston, Brenda Arnold, Trisha Scanlon.
    But before we do that, I want to take a very brief 
testimony from Alderman Frank Beach, who represents--Frank, you 
want to go now? I see you've got a bunch of pages. Can you 
limit it to a couple of minutes?
    Mr. Beach. No, this is just the printed testimony.
    Chairman Manzullo. Okay, go ahead.
    Mr. Beach. Thank you.
    Chairman Manzullo. State your name and spell it for the 
record.
    Mr. Beach. My name is Franklin Beach, B-E-A-C-H. I'm an 
Alderman for the City of Rockford representing the Tenth Ward, 
one of the four wards that were affected by the flood. And I 
thank you, Congressman Manzullo, for arranging this event, this 
evening, and for you gentlemen from FEMA to come out here to 
sometimes take a commitment that has a thankless ending or a 
generous future for us.
    I promise no long speeches, just two pages. I want to say 
again that I represent one of the wards. You've heard from our 
people, you certainly sure will hear from our people. They are 
really hurting, they are concerned, and they are desperate with 
no means for help. We are in debt to the organizations that 
were mentioned earlier, the Civic Organization, Salvation Army, 
and so forth, for stepping up to the plate to do all that they 
can.
    I might mention here from what statistics I've read that 
the medium income for the flood victims ranged from $28,000 to 
$38,000 a year. That's lower than the medium income for the 
whole county area. The county area represents about $46,000 a 
year, and these folks are in a lower category. Many of them, I 
believe the percentage is somewhere around 12 percent, is at 
the poverty level. And they are the ones that are most 
definitely affected by this.
    Neither the State or the City, as has been mentioned, has 
proper resources to cover this. In my concluding remarks, I 
just want to simply say, as I can from my heart to yours, that 
you men are in authority. And you can speak words that can 
begin the process of bringing much needed relief to our 
community, and to grateful families here in Rockford. The 
winter months are here, we need your help, please reconsider, 
because if you won't help, who will? Thank you so much.
    Chairman Manzullo. Thank you, Alderman.
    (Applause.)
    Chairman Manzullo. Roger McVay, does the stenographer, do 
you have a list of all the witnesses? All right. Chris, you 
want to give him a list of witnesses? Mr. McVay, go ahead.
    Mr. McVay. Hi. My name is Roger McVay. I lived at 2733 
Kansas Street. My whole wall was caved in by the flood. About 
two or three days later, FEMA was out there, IEMA was out 
there. We was throwing out mud and everything else. We lost 
everything down in the basement. That can't be replaced. I had 
four years of military pictures, three years over in Vietnam. 
And they can't be replaced.
    And I'm not the only one that's been hurt by this flood, 
but FEMA and IEMA told me and my wife, they said do not worry. 
You're going to have help. And I haven't seen it yet. What are 
you guys going to do.
    Can you answer that?
    Chairman Manzullo. Would anybody like to answer that?
    Gen. D'Araujo. Can you hear me?
    Chairman Manzullo. Yes.
    Gen. D'Araujo. Congressman, if I have the opportunity to 
explain some of this in my testimony.
    Chairman Manzullo. Why don't we do this? Let's take the 
testimony of the witnesses, and then we'll give you a full and 
complete opportunity to--once you've heard all of that, to be 
able to respond along with your testimony.
    Does that sound like a good procedure, General?
    Gen. D'Araujo. Yes, sir. That would be fine.
    Chairman Manzullo. Okay, thank you. Our next witness is 
Janeal Lantz.
    Ms. Lantz. On Monday, September 4, 2006, in just a matter 
of minutes, I literally lost everything I owned as a result of 
an unexpected downpour of rain which resulted in a flood.
    Chairman Manzullo. Janeal, why don't you start over, and 
you can speak a little bit slower.
    Ms. Lantz. Okay. My last name is Lantz, L-A-N-T-Z.
    On Monday, September 4, 2006, in just a matter of minutes, 
I literally lost everything I owned as a result of an 
unexpected downpour of rain which resulted in a flood. I lost a 
total of 69 years of living. Not only did I lose everything 
from household furnishings and clothes, I lost a lifetime of 
irreplaceable family pictures and memories.
    I am a single woman over 65 years old, and own a duplex on 
14th Street. I live in one half, and rent the other half for 
much needed income. The flood caused damage to the entire 
duplex, and nothing was salvageable. I am still not able to 
return to my home, because it is not liveable as of yet. This 
flood has resulted in an extreme financial burden for me, as I 
count on the rental income to help with my monthly mortgage 
payments.
    In April, May and June of 2006, the rental portion of the 
duplex underwent a much needed renovation and upgrade so as to 
keep the neighborhood appearance as nice as possible. The 
renovations were such a substantial amount of money that I had 
to take out a second mortgage to be able to pay for the 
renovations. I have worked all my life. Prior to retiring three 
years ago, I purchased all new furniture, including a 
refrigerator and bedroom set, replaced all the carpeting and 
flooring in my home, as well as purchased miscellaneous 
household items including living room curtains, hoping these 
items would last the rest of my lifetime.
    I have been hospitalized twice this year, May and June, 
with a severe heart condition. This flood has been the 
devastation of my life. It has caused a substantial financial 
burden, as I am not sure if and when I will be able to repair 
in the rental portion of the duplex. Without some financial 
assistance, I have serious doubts that the repairs will be 
feasible. I would then lose my home to foreclosure as my 
ability to pay the mortgage would be no more. I have also 
experienced a significant amount of anxiety and health problems 
due to the stress of not knowing what the outcome will be of my 
home.
    Losing my home to the flood was bad enough. I just pray I 
don't lose it again in foreclosure if there is no financial 
assistance provided. Thank you.
    (Applause.)
    Chairman Manzullo. I also want to recognize that Alderman 
Holt is with us. Alderman, where are you? Thank you.
    Brian Willis.
    Mr. Willis. Hi, my name is Brian Willis, W-I-L-L-I-S. On 
September 4, 2006, the southeast part of Rockford experienced a 
heavy rainstorm which caused severe flooding. My house on 
Nebraska Road in the Rolling Green neighborhood was in the 
direct path of the runoff, causing two thirds of a basement 
wall to collapse in while my wife and I were in the basement 
trying to shut one of the windows that had been forced open by 
the water.
    As the wall caved in next to us, I told my wife to get 
upstairs, I actually probably yelled at her. For whatever the 
reason, I hesitated to go upstairs. When my wife got to the top 
of the stairs and didn't see me behind her, she thought I was a 
dead man. That feeling took a long time to go away, and 
probably still is there.
    In less than five minutes, the basement was full of water, 
and made us wonder if any other wall would collapse. We were 
trapped in our home, because by then the water was two to three 
deep all around our house. Also, our two-car garage was 
severely damaged to the point it was demolished. I think it was 
the scariest thing we have ever had to go through.
    After the water subsided, and the shock and realization of 
what took place set in, the real nightmare started. Nothing in 
life could ever prepare someone for what we went through.
    I remember asking myself over and over, will we survive 
this? What do we do now? In short, the feelings of helplessness 
were very hard to take at times. In fact, we still feel 
helpless today. When Heather from the Rockford Human Services 
called me to ask if I wanted to participate in this meeting, I 
thought, it's worth a shot, but then I started wondering if 
participating was worth it, and why this meeting was even 
taking place. FEMA already said no to funding. Why is the head 
of FEMA coming here? What could he possibly gain from coming 
here and listening to a bunch of sob stories from a bunch of 
flood victims? Could it be that he was--could it be that he 
will be adding the human factor into his decision to help, not 
just the money factor? My hope is you will reconsider.
    As it stands now, we suffered about $30,000 plus in damages 
to get us back where we were, but that is not including 
repairing the other two walls that are now bulging into my 
basement, that will eventually need repairing or all of the 
personal property lost.
    In closing, money talks, BS walks. If you're going to help, 
help. If not, we have enough of our own to deal with. We don't 
need yours. Thanks.
    (Applause.)
    Chairman Manzullo. Lourdes Macias.
    Mr. Macias. My name is Eric Macias. I'm representing my 
mother. She is not very good in English.
    I'm 16 years old. I don't know a lot about the money, about 
the situation. My story was, I was out of town. I was coming 
home when I got hit by the storm. I pulled over at a church 
that was hit and everything. You guys know about the losses. My 
mother called me on the phone. She wanted me to come home. I 
was out of town for the week.
    Chairman Manzullo. You have to take the gum out. Okay? 
That's a rule in school. Okay?
    (Applause.)
    Mr. Macias. Excuse me.
    Chairman Manzullo. We're in school, so we have to abide by 
those rules.
    Mr. Macias. Yes. I came home after--I had to circulate all 
of Rockford because all the major streets were closed off. I 
had to circulate out of Rockford. I parked two blocks away from 
my home. I live on 15th and 8th. I parked at Nelson School, 
which was high ground. I couldn't imagine, I didn't imagine how 
bad it was. The cars were full. I had to come to the aid of my 
family. They were all there. I took off my clothes. I had some 
shorts. Took off my shorts, and I was running down the flood. 
People were looking at me like, hey, you're going the wrong 
way. I had to rescue my family. I got to my door. As soon as I 
got there, I heard a loud boom. The door opened. My dad was 
coming out with my little sister. I saw my mother's eyes. She 
was pale. She looked around. She looked outside the house. She 
was about to pass out. Seeing my mother like that, I'm never 
going to forget it.
    I went inside the house. I didn't know what had happened. I 
grabbed my brother. I grabbed my sister. We all left. When I 
went back, I found out that the loud bang, it was the wall that 
collapsed. The wall collapsed when my family was inside the 
house.
    It was a miracle that my dad, last year he installed a new 
bathroom, and because of that bathroom, it held extra support. 
Because of that bathroom, the whole wall didn't come in. If the 
whole wall would have come in, my family would have come in 
with it. I wasn't home. I couldn't have done nothing about it. 
That's a big burden that I would have had to live with.
    Please take into consideration not only the losses, but the 
emotions. You know the emotional stuff, my dad, we've been 
working every day, weekends at my house trying to repair it, 
trying to do what we can do. My grades have dropped. It's just 
hard. It's a hard thing. Not only the economical, but the 
emotional.
    Thank you.
    (Applause.)
    Chairman Manzullo. The written statement of Lourdes Macias, 
along with the written statements of all others will be made 
part of the permanent record without objection.
    Our next witness is Reva Goettsch. I got the first name 
right.
    Ms. Goettsch. Hi. Reva Goettsch, G-O-E-T-T-S-C-H. We have 
no idea why our family wasn't in the basement on September 4th. 
Our family room is down there, and that's where we spend all of 
our time. We normally have people over for Labor Day Weekend, 
and with the rain, we could have had a lot of people down in 
our basement. We decided just to have a lazy day, and just do 
chores and whatever, lay around.
    I was making supper as my daughter, Caitlin, was getting 
ready to go to work. She needed to be there at 5. She got a 
call from a friend telling her not to go, that Charles Street 
was flooded and she wouldn't be able to drive to Imperial 
Palace. We looked outside, and people were trying to drive 
through the intersection at 10th Street and 6th Avenue. There 
was around six feet of water spewing out of the manhole cover. 
Water was starting to come into our yard as more cars started 
to drive through.
    I moved two of our cars up a half a block from 10th Street 
and 6th Avenue, up to closer to 10th Street and 7th. About 10 
years ago, we approximately had three to four inches of water 
in the basement, so my husband, Stan, went downstairs to check 
for the water. Water was starting to seep in. He had a CD 
collection worth about $20,000. So he was moving off the lower 
CD racks and placing them on the table. I followed him, and 
started unplugging the stereo systems and the TVs. He had only 
made it about one shelf of a CD rack before the water started 
just pouring in around his feet.
    He filled a laundry basket with the CDs and brought them 
upstairs, and as I grabbed his Postal Uniform and my son's 
football jerseys, I called for my daughter Caitlin to get her 
basket of clothes from the laundry room. When Stan started 
going back down the stairs to retrieve more stuff, he heard a 
crackle, and he saw the wall collapse. Caitlin was at the 
bottom of the stairs with a basket of clothes in her hand. We 
saw the basement start to fill with water as we were screaming 
for her to move, just get up the stairs.
    She started running up the stairs as the water pushed our 
sofa right behind her. All of this happened in about five 
minutes. The Fire Department had already had a rope tied to the 
neighbor's stairs, so I called out to them that our basement 
had collapsed. They told us to take a jacket and leave, and the 
current was so strong on 6th Avenue, they had to carry Caitlin 
across the street to the neighbor's porch. That's her picture 
that they show in the paper.
    The Fire Department wanted to take us to Hallstrom Center, 
but our cars were only parked that half block up. There was no 
water at all on 10th Street and 7th Avenue. A Police Officer 
took us to our cars, and it took us about 15 minutes to just 
get that half block.
    We picked up our son and went to my sister's house, 
planning on staying the night. We realized we were soaked and 
we didn't have any clothes. I'm not sure of the time, but we 
went to Wal-Mart squishing through all wet, buying clothes for 
that night and the next day. We spent the next two nights at 
Fairfield Inn. We then stayed a week at Excel Inn because it 
had a small kitchen, and on September 15th, we moved into a 
four room apartment.
    The day after the flood, we returned to the house to check 
out the damage. The entire front basement wall of the house had 
collapsed, and there was around three feet of mud in the 
basement. While we were there, the City came and told us to 
leave, that they had condemned the house.
    I called the insurance companies, but after the call, I 
didn't know what else to do. This was the most frustrating part 
of the whole ordeal. I attended a meeting on 5th Avenue and 
expressed this to someone from the City. I wanted my household 
hoisted up. I didn't want it to collapse. They offered a number 
for someone in Genoa, and they came within two days to hoist 
the house up to prevent collapse. After another meeting that 
the City hosted, at Stockholm, and I learned of a volunteer 
cleanup that was going to be held on Saturday. And Maywood 
Evangelical came on Saturday and took all the large items out.
    I was working with A-1 Restoration to repair the basement, 
but nothing was happening. They were obviously overwhelmed when 
they were asking me for leads on masonry repairs. After the 
house was hoisted up and large items were removed, everything 
seemed to come to a halt. There was no one available to do the 
repairs at all in town. I told A-1 and my insurance agent that 
they needed to place plywood around the basement so that my 
house would not be vandalized. They didn't do this, and on 
October 3rd, someone merely walked through my basement into my 
home and stole all of our electronic items, my jewelry, and 
went through all of our personal items.
    I then had to cancel most of our credit cards. The day of 
the burglary, I told my son to look for anyone repairing a 
basement. We were taking back control. We found a sign and a 
contractor. After two walls being replaced, and the third one 
being dug out and resealed, we moved back into our house last 
weekend. We never realized how much we had in our basement, 
some things like Stan's glasses, contacts, furniture, 
appliances and all our clothes can be replaced. Our videos of 
the kids, slides from Stan's parents' collector albums and 
family pictures cannot. But most importantly, our children have 
suffered a lot. My son has asthma, and we had to bring our 
animals with us to the four bedroom apartment. We could no 
longer afford to board them. His asthma flared up since he was 
in a small apartment with a cat and a dog. He is now taking a 
stronger medication to control the flare ups. He's missed an 
unbelievable amount of school. Our above-average student just 
received two failing grades on his report card.
    My daughter has also missed a lot of school. We just 
received a warning list, a warning from East regarding 
attendance. She is now seeing a doctor for counseling to help 
her deal with the trauma of September 4th. We almost lost her 
to the flood.
    Our basement is almost finished, and we're living at our 
house. Last weekend, I was raking leaves from the street. The 
storm sewer on the north side of my house is packed with 
leaves. It was the only one that was operational on the day of 
the flood. The other corners have been collapsed for 10 years. 
I've called the City for years to repair the storm sewers on 
the other corners, but I was told there was no money to do so. 
Instead, they installed another one on the other side of my 
property to help take some of the water. It's no surprise that, 
of the four corners, my home was the only home condemned and 
the only one that had any damage as far as I'm aware.
    There was standing water on the corner of the street this 
morning. The cement edge of the creek by my home is now eroded 
after the flood, and there is around six feet of mud and 
garbage blocking the water flow under the bridge. We signed an 
authorization around five years ago for the city to come on to 
our property and repair the creek. We never saw anyone. The 
creek has not been cleaned in at least 10 years.
    The City of Rockford must maintain and repair the storm 
sewer system, and keep the creek cleaned and replace portions 
of it when needed.
    The flood cost, with personal items lost and repairs, 
around $60,000. We had $31,000 of structural flood insurance. I 
don't want and can't afford to have a repeat of this problem 
when the spring thaw starts. Major renovations on the creek and 
the sewer systems need to be done now, not after another three-
year study.
    (Applause.)
    Chairman Manzullo. Reva, you did have flood insurance?
    Ms. Goettsch. Yes.
    Chairman Manzullo. Why did they only pay $31,000 of the 
$60,000?
    Ms. Goettsch. Because I've been angry at First Stolman Bank 
for 23 years that I had to have flood insurance, and that's 
what the amount of my loan was on my home. Every year, I would 
take it down to match the loan amount on my home.
    Chairman Manzullo. And the $60,000, was that structural 
repairs?
    Ms. Goettsch. No. No, I think the structural was $46,000.
    Chairman Manzullo. $46,000?
    Ms. Goettsch. That includes the furnace and everything.
    Chairman Manzullo. Okay, and so the flood insurance 
diminishes with the amount of the mortgage, principle, is that 
correct?
    Ms. Goettsch. Yes, that was my choice. They cut us a check 
for the $31,000.
    Chairman Manzullo. Thank you. Our next witness is Livetta 
Houston. Do you have some pictures for us, Livetta? Chris, do 
you want to help her with those pictures? She might want to 
show them to the folks at FEMA.
    Did you need the pictures in your testimony, Livetta? All 
right. Go ahead.
    Ms. Houston. Hello, my name is Livetta Houston. My family 
and I resided at 2528 Holmes Street, Apartment 6. I am here to 
tell you about the pain and suffering we went through on 
September 4, 2006. Here are some pictures we took the next day. 
Water pouring in the windows throughout the apartment. Notice, 
I didn't say ``homes,'' because I can't afford a home. I am not 
a homeowner, but this is an apartment which my family and I had 
called home.
    My fiance had ran to the back of the apartment to get our 
son, A.J. out of the bed. His bed was under a window with an 
air condition unit in it. Just in time, my fiance pulled my son 
by his feet, right before the air conditioning unit fell on the 
bed where my son was laying.
    We had to run through the apartment to get to the front 
door of the apartment where my daughter was holding the door 
open. The electricity was still on. The landlord did not cut it 
off while we were still there, and the water was above my 
knees.
    My children had no shoes, only pajamas on. None of us had 
no jackets or shoes. My children were crying, and asking, why 
is this happening? I had no answer and I still don't. After 
what we went through, we have every right to know what's going 
to happen. Why isn't our situation considered a disaster? Many 
of us here tonight went through so much we didn't see coming, 
and it wasn't an act of God.
    These days, I have to work extra hard to get what I had 
already worked for. Christmas this year isn't. Help us here in 
Rockford. Thank you.
    Chairman Manzullo. Livetta, where did you move after you 
left your home?
    Ms. Houston. Right now? In the beginning, we started--we 
saved a lot of money and moved to 2528 Palm Street where it was 
a more convenient place to raise my kids. Now I'm back in the 
same situation. I live off of Dempster, where it's not safe for 
my kids to walk.
    Chairman Manzullo. You want to explain to the gentlemen 
from FEMA what Jane Adams Home is?
    Ms. Houston. Excuse me?
    Chairman Manzullo. Do you want to explain to the gentleman 
from FEMA what the Jane Adams home is?
    Ms. Houston. Jane Adams is a complex out here where they 
put low family income, where you have to meet the standards, 
the guidelines, you have to do what you're told. When I moved 
out of there, I was paying $100 and something for rent, and I 
didn't want that for my family and my two kids. So I worked 
extra hard. I worked at the Hoffman House. I got a job. I moved 
to a place where I was paying $425 a month. Now I've got to 
work and live somewhere where I got to pay $575 where it just 
isn't safe. I liked it where I was. I mean, what are you going 
to do for us? I mean, we weren't in a hurricane, but still we 
suffered. We lost. I mean my two kids, their birth 
certificates, one of my children was born here, and one was 
born out of Illinois. How will I get that back? I can't get 
none of that back.
    Thank you.
    Chairman Manzullo. Thank you, Livetta.
    (Applause.)
    Chairman Manzullo. Our next witness is Brenda Arnold. Rich, 
do you want to help her get the mic?
    Brenda, you might want to stay there so we can see. If you 
get too much closer, we won't be able to see you. Can you all 
see her?
    Okay.
    Ms. Arnold. Hi. My name is Brenda Arnold, A-R-N-O-L-D. We 
reside at 1811 15th Street, where we're first time homeowners. 
We had lived there not quite two years, and as far as it goes 
for me, I have a lot of health problems. On September 4th of 
the flood, our home was flooded. My husband went to go down to 
the basement, and he met the water coming up the stairs, 
windows cracking and all. I have to be confined to a wheelchair 
because I'm not able to walk. Well, I can walk, but not like 
everyone else. I'm not able to get around without a walker or a 
cane or crutches or something like that.
    During the flood, the water came all the way up to the 
second floor. We're sitting in there with the electricity still 
on. The electrical box is downstairs, the outlet is covered 
with water. We were in so much danger being there in that water 
waiting to be rescued, and it was just God's will that any of 
us didn't get electrocuted.
    The flood was so devastating to us. It was nine of us in 
the home at that time because we were about to sit down and 
eat. The kids had came in from Arkansas and here to cook and 
everything for me and my husband so we could celebrate that 
day. And everything happened so fast that, you know, we 
couldn't believe it. You hear about these things way off, but 
you don't expect them in your home. No, there was no 
fatalities, but yet and still a lot of people lost a lot of 
things. And could have lost their life, but God didn't see fit.
    I was afraid because I'm sitting there in my chair, calling 
911. I think I made about 10 calls to 911 to be rescued on that 
night. It was like 9 o'clock that night before we got rescued, 
and that was the guys from Belvedere that came in and rescued 
us. And I thank God for that.
    We lost our home. It's been condemned. We lost everything 
in the home. We lost vehicles, and none of this stuff can be 
recovered. A lot of my medical equipment, motorized 
wheelchairs, walkers, just everything that I needed for even 
medications that was lost in the flood, clothing. We didn't 
have any clothing. We lived in a hotel for two months. Now 
we're in an apartment. Now we have to pay mortgage plus pay 
rent. We're not able to afford that. We know that the money is 
there to help, but will you help? That is the question. Not 
just for me, but for everyone that is here.
    (Applause.)
    If you haven't walked in our shoes, you really don't know 
what we're going through. And to think that it may not happen 
to you some day is really something you all will think about. 
We didn't ask for the flood. It was an act of God, and He did 
spare our lives, and I don't feel like He brought any of us 
this far to leave us, and I'm praying and hoping that He will 
put on your heart, your mind, to help the people of Rockford, 
Illinois to restore--we can't restore everything. We know this. 
But if you would just help to put us back in our homes to help 
us.
    Some of us can't afford to go out and say, well, I'm going 
to take out a loan. Why are we going to take out a loan for 
homes and things when we already have a lot of overhead? We 
can't afford it. We did have flood insurance, but like the 
other lady was saying, it don't cover the home. It don't cover 
what was in the home. The homeowner's insurance, we have that. 
But no, it's not covered by flood. We don't have flood--it 
don't cover that.
    So what are we, as citizens of Rockford, to do? Think about 
it. It could have been you. So don't just turn your backs on us 
because there was no fatalities, or because it wasn't you. But 
consider that it could have been you.
    I miss my home. And I could have lost my kids and my 
grandkids on that day. If not drowned, we all could have been 
electrocuted sitting right there in the house. I had even 
called ConEd to come and shut the electricity off. Do you know 
when it got shut off? A few days later. A few days later.
    Chairman Manzullo. Brenda, how much flood insurance?
    Ms. Arnold. $35,000.
    Chairman Manzullo. And have you received estimates on the 
cost to fix your house?
    Ms. Arnold. It's way over--
    Chairman Manzullo. Could you identify yourself and speak 
into the microphone?
    Ms. Akeeno Arnold. I'm Brenda Arnold's daughter, Akeeno 
Arnold. The estimated damages of the flood for our home were 
around $130,000 or more because a wall had caved in. We're 
still dealing with the mud being in the basement, major items 
still being in the basement. The house actually needs to be 
lifted. Both of my parents are disabled and on fixed incomes, 
and they're not able to fix the damages that are going on with 
the house, and my mother had suffered from open heart surgery 
earlier that year, and she's dealing with an overwhelming 
amount of stress, dealing with the insurance companies and what 
not, trying to figure out what's the next step. And we just 
implore that you just help us, and help us in an effort to fix 
what is damaged. And we thank you.
    Chairman Manzullo. How much are the mortgage payments each 
month?
    Ms. Akeeno Arnold. $914.
    Chairman Manzullo. $914?
    Ms. Akeeno Arnold. Yes.
    Chairman Manzullo. And what's the balance of the mortgage?
    Ms. Akeeno Arnold. $51,000. We had only been there a year 
and a half.
    Chairman Manzullo. Okay. Thank you very much. We appreciate 
it.
    (Applause.)
    Chairman Manzullo. Tricia Scanlon.
    Ms. Scanlon. Hi, my name is Tricia Scanlon, S-C-A-N-L-O-N. 
My family and I were severely affected by the Labor Day Flood 
as well.
    We actually had several friends come and help us remove all 
of our walls and flooring the very next day and have estimated 
our damage at about $40,000.
    Every bit of carpeting and padding in our home needed to be 
removed, along with the bottom two feet of the dry wall and the 
plaster. One entire room needed to be gutted, as the subfloor 
and walls were made from particle board. The foundation has 
sunk where the quarter basement used to exist. Our furnace 
needed to be replaced.
    I myself did some research on how to ensure that we can 
remove any and all material that could grow mold and/or 
bacteria and I believe we did a decent job. We had our well 
water tested. It was positive for e.Coli as well as coliform. 
We then had a well contractor come out and he has chlorinated 
the well, but unfortunately, we are still unable to drink our 
water.
    We have purchased a water cooler and five gallon bottles of 
water for our consumption. Obviously, all of this costs money 
and we quickly ran out of it.
    One point I would like to make is that our home is located 
on Hillcrest Road far from Keith Creek. From the information 
that I gathered, we're located in Zone B and our home is not 
even on a flood plain map. All of the water damage to our home 
was from the runoff that came from three different directions 
from that rainfall event. We did not have flood insurance. We 
were not even offered flood insurance for our home.
    My three-year-old son's room was the most adversely 
affected and we've done our best to make his space liveable. 
Fortunately, I come from a family of do-it-yourselfers and we 
are able to do a lot of this ourselves. However, we don't have 
any more money to purchase the supplies that we need to 
complete the restoration of our home. We consider ourselves to 
be the lucky ones. We're able to live in our home. What about 
all the rest of these people that are still not returning to 
their homes? Please, reconsider your decision. We need help. We 
can't do this on our own.
    (Applause.)
    Chairman Manzullo. Thank you. I want to slip in two more 
witnesses. This young lady, why don't you come up and identify 
yourself. Spell your last name for the record and then when 
you're finished, Jeff Holt, the Alderman, an Alderman who 
represents some of the area impacted, wants to give a brief 
statement.
    Go ahead, please.
    Ms. Knight. My name is Tanya. My last name is Knight, K-N-
I-G-H-T.
    I have been living in Elgin in low-income housing. I have 
four children and in July I purchased my home here in Rockford. 
It was my dream. Two months later, the flood comes. All my 
children's clothes, everything I worked for was washed away. 
Half the stuff was still in the basement in boxes because I had 
only been there for two months.
    We were trapped in the house. The water, I had over 14, 
easily 14 feet of water come into my house. I live on 7th 
Avenue and the creek is right in my backyard, so I was getting 
flooded from four different directions.
    I'm the only one in my house who can swim so I could not 
get my four children out of the house because I was watching 
big, huge dumpsters, I mean commercial dumpsters flowing down 
the road, pieces of people's porches, cars bumping into each 
other, people outside--the people that live next door to me are 
very elderly and they were screaming for help and I couldn't 
even get to them to help them.
    This flood has changed my life. It has changed my 
children's life. To hear my 12-year-old daughter and my 8-year-
old daughter crying are they going to die and being trapped in 
a house with sewage and hearing my animals in the basement 
dying and there's nothing worse than hearing an animal dying 
and you can't do anything and your children are hearing that, 
to have nothing left, no fridge, no cabinets, no nothing.
    Yes, I had flood insurance. Have I seen a penny of it? No. 
I'm still fighting them because they're trying to tell our 
family that all the damage to my whole basement buckling where 
the earth gave way and the water was coming up through the 
basement and the foundation cracked so severely, they're still 
trying to say it was due to the house settling. The house 
didn't settle that day. A flood happened that day, a flash 
flood happened that day.
    We were told, we got rescued in a boat. Do you know what 
that feels like to leave your house in a boat? A boat that you 
worked so hard to watch your dream get washed away. I'm not 
trying to give you a sob story. I'm just trying to let you know 
we are hardworking people. That was our dream. This is our 
dream. Look at these people.
    (Applause.)
    Please, take one minute, please, just take one minute and 
look at these families. It's not me, it's not them. It's 
everybody. We were promised that you would help us. We were 
told--I lived at a shelter. I am still homeless. I can't even 
go home. There is no Christmas for my children. I work six days 
a week right now and every penny I have is trying to fix this 
house that was my dream. Please help my children go home. Help 
us. I just want to go home. We want to go home.
    (Laughter.)
    Thank you.
    Chairman Manzullo. Tanya, do you want to tell us the name 
of the insurance company?
    Ms. Knight. I'm not here to slander anybody.
    Chairman Manzullo. Okay. We're just trying to help and 
sometimes by letting people know that the insurance company 
is--this is not percolating water, this is crap that they gave 
you.
    Ms. Knight. It was Farmers Insurance. My cheapest estimate 
to fix my home was $45,000. Do you know what the insurance is 
offering me? $20,000. Tell me what that is going to fix? Tell 
me that. I'm living with a family from a church, the Hallstrom 
Center, the Four City Fellowship that owns the building. I'm 
living with a family I only knew three days. I've been there 
for months now. I'm sure they want their home back. I want to 
go home. We want to go home.
    (Applause.)
    Chairman Manzullo. Thank you, Tanya.
    Jeff Holt?
    Mr. Holt. Thank you, Congressman Manzullo and gentlemen 
from FEMA. What you heard tonight were a number of stories from 
residents in Rockford that were devastated by a freak storm, as 
you know. The problem is is that these are only a small number 
and a small representation of the devastation and the impact 
that families are facing throughout our community.
    We're not asking you to solve all of our problems. We're 
not asking you to replace our personal belongings like photos 
and memories because you cannot simply do that. Many of the 
people that lived in these areas that were affected are in one 
of the poorest zip codes in our entire State. These families 
worked hard every day, some working two and three jobs simply 
to be able to pay their mortgage, pay their taxes and to put 
food on their family's tables. Affected by a flood and a 
devastation that these folks have experienced, it is impossible 
for them to be able to rebuild their lives. Hundreds of 
families in our community are faced with a decision of whether 
to file bankruptcy, have their homes foreclosed upon, those 
types of actions stay with these families for a decade, if they 
have to make that decision, if they're unable to rebuild their 
homes.
    You've heard stories from people that had to reduce or 
chose to reduce their flood insurance and you may be thinking 
to yourselves, well, why would you do that? Well, many of the 
reasons that these folks did that is because flood insurance is 
expensive, oftentimes two times what homeowners insurance 
costs. They made that decision not because they didn't want to 
pay it. They made that decision because it was a decision they 
financially had to make, that they were forced to reduce their 
insurance so that they could afford to put the food on the 
family's table.
    So we only ask that you review the additional information 
that the city has given. We understand that if you did not have 
all the information to make your original decision, that you 
may have made a fair decision. But now that you have the 
information that the city has presented to you and IEMA and 
Congressman Manzullo and our two Senators from this State, we 
ask that you look at that hard and make a decision based on 
that evidence. Thank you for your time.
    (Applause.)
    Chairman Manzullo. Thank you. For the rest of the hearing 
we're going to have the testimony of General D'Araujo and then 
we're going to have the open mic, so those of you who have been 
victims of this flood, I would encourage you to give your 
stories and I know it may be difficult for you to do so, but 
this is the best way that we can document the extent of the 
nature of the loss.
    General D'Araujo.

  STATEMENT OF MAJOR GENERAL JOHN R. D'ARAUJO, JR., RECOVERY 
 DIVISION, FEDERAL EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Gen. D'Araujo. Good evening, Chairman Manzullo. Thank you 
for inviting us.
    I am John R. D'Araujo, Jr. I am the Director of FEMA's 
Recovery Division. I am really pleased and honored to appear 
before your Committee to summarize and discuss FEMA's emergency 
response and the declaration process in the event of a natural 
or a manmade disaster. In particular, Governor Blagojevich's, 
if I have that name pronounced correctly, September 11th 
request for a major disaster on behalf of the State of 
Illinois.
    Before I provide an overview of our efforts in relation to 
the City of Rockford and Winnebago County, I would like to talk 
briefly about FEMA's role and authorities under the Robert T. 
Stafford Disaster Relief and Emergency Assistance Act.
    When an event is of the magnitude or severity that 
effective response is beyond the capabilities of the State and 
the local governments and federal assistance is necessary, this 
Stafford Act authorizes the President to provide emergency 
assistance to States and local governments. I would like to 
stress that FEMA assistance was designed by Congress to be 
supplemental in nature.
    A Governor may determine, after consulting with local 
government officials, that response or recovery may be beyond 
the combined resources of both the State and local government, 
and that federal assistance may be needed. As you heard earlier 
from the gentleman from the State to assist the Governor in 
determining if a request for assistance should be made, a 
preliminary damage assessment may be conducted at the request 
of the State. These assessment teams, as you heard, are 
comprised of both FEMA, the State's Emergency Management 
Agency, county and local officials, and the U.S. Small Business 
Administration.
    I think it is important to note that while FEMA may collect 
information about all types of damage, only the damage that 
would be eligible for FEMA assistance is considered in the 
evaluation process.
    As you heard on September 8th and 9th, and again on October 
5th and 6th, FEMA conducted preliminary damage assessments in 
conjunction with the State of Illinois and the City of 
Rockford. We at FEMA do not believe that there's any dispute 
about the relevant damage, what the relevant damage numbers are 
for this disaster. The remaining question is what do these 
numbers mean? And I believe that's why you asked us here today. 
I do, however, need to point out that the State as you heard 
has recently submitted an appeal and it would be premature for 
us to comment on that appeal at this time.
    At to the conclusion of these joint damage assessments, the 
Small Business Administration determined that the damage was 
sufficient, both between both homes and businesses to warrant a 
Small Business Association declaration. This kind of a 
declaration makes low cost loans available to home owners and 
businesses to assist in recovery from a disaster event.
    However, it is my understanding that the SBA cannot act 
because there has not been a formal request from the State--
    Chairman Manzullo. That's not correct. I am the Chairman of 
the Small Business Committee. I talked to Herb Mitchell who is 
the person at the SBA in charge of the disaster recovery. They 
are set to come out here. The reason they have not opened up 
the office yet is because they're waiting for the decision on 
FEMA, so you don't have two competing agencies. But they are 
set and ready to go.
    Gen. D'Araujo. Right. We understand that they determined 
that there is sufficient--
    Chairman Manzullo. That's correct.
    Gen. D'Araujo. --for an SBA declaration.
    Chairman Manzullo. That's right.
    Gen. D'Araujo.
    The Governor's Initial Request for a disaster assistance 
was denied on October 20, 2006. The determination to deny 
federal assistance was made in consideration of the results of 
the damage assessments conducted and reflected the President's 
assessment that the scope of damage was within the combined 
response and recovery capabilities of State, local, and 
volunteer agencies, such as the Red Cross, the Salvation Army, 
and others as was discussed earlier.
    The Stafford Act restricts the use of an arithmetical 
formula or a sliding scale based on income or population as the 
basis for determining the need for federal supplemental aid. As 
a result of that, FEMA assesses a number of factors to 
determine the severity, magnitude, and impact of a disaster 
event. The Mayor alluded to some of these, but these factors 
include amount and type of damage, dispersion or concentration 
of that damage, the level of the insurance coverage in place, 
assistance available from other available sources, and again 
this is State, local, and voluntary agencies. The frequency of 
disaster events over a recent time period and the scope and 
magnitude of unmet needs of those affected by the event.
    The very nature of disasters through unique circumstances, 
the unexpected timing and varied impacts, precludes a complete 
listing of all the factors considered when evaluating disaster 
declaration requests, because they are bound to be different 
for each event. No single factor of those that I just mentioned 
are considered in isolation when developing a recommendation 
for the President.
    On October 24, the State of Illinois formally indicated 
their intent to appeal the denial of this disaster request. The 
State's supporting information was received by our regional 
office last week. And since the time of the event, FEMA's 
Region V Office and FEMA Headquarters have been in frequent 
contact with representatives from Rockford, the State of 
Illinois, and congressional staff to discuss the declaration 
process as well as our programs.
    FEMA will review all the information it has received from 
the State and give it every consideration. We recognize in FEMA 
that all disasters, no matter how large or how small, can be 
devastating to the people in the communities affected by them. 
We sympathize with the home owners' efforts to repair their 
homes, rebuild their houses, replace furnishings and personal 
effects, and recover from the flood event. Let me assure you 
that FEMA employees are compassionate people, dedicated to 
public service, and they understand the importance of providing 
relief to disaster victims. That's what we do. While we do 
realize that there are those in need, FEMA must operate within 
the authorities which govern our programs, as well as recognize 
the state-federal relationship and partnership that exists.
    On a housekeeping note, Mr. Chairman, on page 5 of our 
written testimony, the last line should have read ``there were 
no serious injuries or death as a result of the event.'' And 
with your permission will submit corrected testimony to the 
Committee.
    I want to thank you for the opportunity to provide you the 
insight into FEMA's declaration process, and our ongoing 
outreach and work with the State of Illinois following this 
event. We would be pleased to answer as many of your questions 
as we can.
    [Major General D'Araujo's testimony may be found in the 
appendix along with Mr. Edward Buikema's testimony.]
    Mr. Morrissey. Yes, I appreciate the--I guess we'll do open 
mic after. I've got a few questions and I don't want to take up 
too much of the citizens' times for open mic.
    Chairman Manzullo. How many here have a desire to speak at 
the open mic, do you want to raise your hands? I see one, two, 
three, four, five six--okay.
    Let's go to the open mic first, all right? If you folks 
want to line up over here behind the podium. Rich, could you 
help them? If you could each limit your testimony to 
approximately two minutes and it's important that the--Pat 
Curran, where are you? Alderman Curran.
    Pat, why don't you come up here and lead off and then--
okay. Come on, Pat, let's move. You're just lolly-gagging down 
the aisle there.
    (Laughter.)
    Try to limit the statements to two or three minutes. Give 
your name and then spell the last.
    Mr. Curran. Thank you. I'm Pat Curran, that's spelled C-U-
R-R-A-N. I'm the Second Ward Alderman here in the City of 
Rockford. And my neighborhood, my ward, was part of that 
devastation and as I sat here listening to these comments 
tonight, I was reminded it wasn't so long ago that on 
television I got to watch what flood waters could do in New 
Orleans, for instance, and what the hurricane did and when you 
watch that, you think that's a terrible thing. And then 
suddenly it hit us and the flood waters took on a whole new 
meaning.
    But the interesting thing that happened here in Rockford is 
that as devastating as it was, when the victims of that flood 
reached out for help, the City of Rockford responded and the 
citizens of Rockford responded. The victims didn't shoot at 
anybody. And the City of Rockford did all that we could and 
nobody blamed FEMA or the Federal Government for the storm. And 
nobody blamed them because we didn't have enough boats quick 
enough to get the people out of there.
    So we did everything that we could and now after the flood 
waters have receded and the mess is cleaned up, we've got to 
rebuild. We don't have the resources. My comment is very 
simple. Just help us help ourselves.
    Chairman Manzullo. Thank you, Pat.
    Mr. Kern. Thank you.
    (Applause.)
    Chairman Manzullo. Rich, do you want--okay. And everybody 
that's in line here is somebody who has suffered a loss, is 
that correct? That's what we want. Go ahead, state your name 
and spell the last for the record, please. Go ahead.
    Mr. Wright. Hi, my name is Rex Wright, W-R-I-G-H-T. There 
wasn't much said about businesses.
    Chairman Manzullo. Do you want to give us your address, 
please?
    Mr. Wright. I'm sorry?
    Chairman Manzullo. Your address.
    Mr. Wright. My former address was 2314 Charles Street. I 
had to move my business. I had been there for 20--a little over 
20 years and there's approximately a one mile stretch of 
Charles Street where businesses on both sides of the street 
were damaged. I don't know if the amounts of loss are included 
in that or not. Mayor Morrissey was mentioning mostly about 
individual homes. But after over 20 years, I had to move my 
business. That is expensive, plus people get used to you being 
in a certain spot for years and years. But the main thing I 
wanted was just to let you know not only were individual homes, 
there were businesses, pharmacies, grocery stores, restaurants, 
offices damaged also. That's all I have.
    Chairman Manzullo. Thank you.
    (Applause.)
    Mr. Whitson. My name is Giles Arthur Whitson, Jr.
    Chairman Manzullo. You have to spell the last name for the 
record.
    Mr. Whitson. Whitson, W-H-I-T-S-O-N. Junior. There's four 
of us. Before the flood, I had the opportunity to go through a 
flood in southern Illinois in Murfreesboro. My father lived in 
Gorham. I took him out of the area. He went back to the area. 
I'm not a person who hasn't had no experience with the flood 
system. I know what FEMA does. I know from experience. The 
thing is, the most important thing is that the City did their 
best of trying to help us out of what's going on.
    I stood up to my rear and I'm a very tall man, as you can 
see, and I stood in the rear of my front yard in water. Our 
basement, we had four foot of water come through in one whack. 
The door fell apart and my son and I almost got drowned. That 
is nothing you can help us with. What you can help us with is 
try to get the funds that are able to help us help ourselves. 
And the most important thing is that everybody has pulled 
together that I know about, the City, the Police Department, 
the Fire Department and by the way, I am an armed security 
officer, at that time, two companies. I know what it's like to 
be in the government. I know what it's like to go and have 
people need your help.
    So please, help us.
    Chairman Manzullo. Mr. Whitson, the extent of the damage, 
dollar amount, your house? Do you have any idea?
    Mr. Whitson. We lived in our house for two months. We did 
not go out. As far as I know, we're the only ones that lived in 
the house and stayed there. The house still has no electricity, 
has no heat, has no water now because we had it turned off and 
there's not been a determined amount yet because the insurance 
companies has refused to come to see us.
    Chairman Manzullo. Do you have flood insurance?
    Mr. Whitson. The lady we was buying the house home had it, 
yes. We had a place called, a document called ``rent to own'' 
and I, ourselves, did not lose the house. The lady that was 
with us that we was going through, she lost the house. We lost 
all of our stuff and we have relocated. We will not live back 
in that house.
    Chairman Manzullo. The name of the owner of the property?
    Mr. Whitson. Celena is her first name. Josenberg.
    Chairman Manzullo. Do you want to spell that for us?
    Ms. Whitson. She lives in Arkansas and she has not 
contacted us or come back to see what it looks like.
    Chairman Manzullo. So you're buying the house from her on 
contract?
    Mr. Whitson. We was buying the house.
    Ms. Whitson. We were going to.
    Mr. Whitson. We've dropped it.
    Ms. Whitson. We're renting. We were in the renting process.
    Mr. Whitson. So the thing is, most important thing is for 
us and for everybody else in this building--
    Chairman Manzullo. We need your address.
    Mr. Whitson. The address is 622--
    Ms. Whitson. Six twenty-seven.
    Mr. Whitson. Excuse me, 627 16th Street.
    Chairman Manzullo. And you were in the process of buying it 
on contract?
    Ms. Whitson. Two year lease of renting with option to buy.
    Chairman Manzullo. But did you exercise your option?
    Mr. Whitson. No, we got out of it.
    Chairman Manzullo. Okay.
    Mr. Whitson. We can't go and live there no more.
    Chairman Manzullo. Okay, I understand. Thank you for your 
testimony.
    Mr. Whitson. Thank you very much for your time.
    (Applause.)
    Ms. Whitson. My name is Marjorie Whitson and I want to 
thank the City--
    Chairman Manzullo. You've got to spell your last name.
    Ms. Whitson. --human services, Amy and Laurie, for helping 
us give the money, first month's rent for the McLintock family 
that helped us move into a home that they had, that they were 
trying to sell. So we are renting there and possibly buying 
from them later. But I wanted to thank the City for all the 
help, the Fire Department, everybody that helped out.
    (Applause.)
    Chairman Manzullo. I appreciate--we have a lot of 
witnesses.
    Ms. Whitson. I know. I almost lost my son and husband that 
night because they were in the basement. My husband was turning 
off the gas and lights and my son got hit by the basement 
doorknob. I've got the pictures to prove it, if FEMA wants to 
look at it.
    Chairman Manzullo. Chris, do you want to take those 
pictures and make them part of the record?
    Ms. Whitson. These are mine. I want FEMA to see it from me.
    Chairman Manzullo. Okay, we can do that. Thank you. Next 
witness?
    (Applause.)
    Ms. Abernathy. My name is Joanie Abernathy, A-B-E-R-N-A-T-
H-Y.
    Chairman Manzullo. Your first name is?
    Ms. Abernathy. Joanie.
    Chairman Manzullo. Joanie, okay, go ahead, please.
    Ms. Abernathy. I live on the corner of 10th Avenue and 15th 
Street.
    Chairman Manzullo. And your address?
    Ms. Abernathy. It's 1103 15th Street.
    Chairman Manzullo. Okay, go ahead.
    Ms. Abernathy. I had to call the Human Services Department 
twice to make sure that they had us on record as having had a 
loss. I called the first time like right after it was 
advertised on the TV to call and let them know. Then I called a 
week later and they still didn't have us in the system. So then 
I went down in person, like a couple of weeks ago to make sure 
that we were listed as having had flood damage and I had 
brought some pictures to show them so that they knew that I was 
telling the truth.
    When all the information on TV about IEMA and FEMA being in 
town, I never saw anybody on our street. I didn't know whether 
or not we were going to be included as being part of the flood 
damage or not--
    Chairman Manzullo. Could you tell us the extent of your 
damage?
    Ms. Abernathy. We had probably about $15,000 worth of 
damage, not a lot. We didn't have any structure damage.
    Chairman Manzullo. Any insurance for that?
    Ms. Abernathy. We did have flood insurance, but they did 
not cover everything--
    Chairman Manzullo. How much did they pay?
    Ms. Abernathy. They paid $9,000.
    Chairman Manzullo. Structural?
    Ms. Abernathy. And that was because of depreciation, the 
furnace supposedly was only worth like $1800, hot water heater 
was about $250.
    Chairman Manzullo. So the flood insurance was not paying 
you actual replacement value?
    Ms. Abernathy. It didn't pay actual replacement cost.
    Chairman Manzullo. Okay.
    Ms. Abernathy. But my biggest concern was the fact that it 
did occur when we went to purchase our home which we actually 
had just moved into in 2003. We did not know at the time that 
it was on a flood plain until we went to get the mortgage and 
then they said oh, you have to flood insurance. So that's an 
extra $550 a year on top of our already homeowner's insurance 
which didn't--
    Chairman Manzullo. Joanie, let me cut you off there because 
I want to get the rest of the witnesses--
    Ms. Abernathy. No problem.
    Chairman Manzullo. Thank you so much. Do you have pictures 
there?
    Ms. Abernathy. Yes.
    Chairman Manzullo. Okay. Chris, do you want to--
    Ms. Abernathy. Of course, they're in black and white.
    Chairman Manzullo. That's all right. Thank you, Joanie.
    Ms. Abernathy. Thank you.
    Chairman Manzullo. Our next witness, please.
    (Applause.)
    Mr. Fenicle. My name is John Fenicle and I'm representing 
my parents that are 85 years old and can't get here. They lived 
at 2113 Wellworth Avenue, just outside the county on the other 
side of Elkland.
    Chairman Manzullo. Do you want to spell your last name?
    Mr. Fenicle. My last name is spelled F-E-N-I-C-L-E. Again, 
my father started working at the age of 12 years old, went in 
the service at 16, represented our country for four years 
overseas, came out at 20 years old and worked his whole life 
until he was 67 years old, paying federal taxes. And I feel 
that you know, he deserves something. He had a small house paid 
for, lived there 59 years, no basement. The flood came in, 
knocked my, literally, knocked my mom down and she has had 
problems with her shoulder ever since. They lost everything.
    Right now if you go to their house, they have no floors in 
the house, no walls inside the house. They've been living with 
me since this disaster. It puts a little bit of a strain on 
both relationships, my relationship with my parents, my wife, 
my child and they have no place to go. They're on a fixed 
income. Who's going to give them a loan at 85 years old to fix 
up a house? I went in there just based upon if I did the work 
myself, to fix the floors, put new floors, new drywall, I 
estimate the value of about $35,000 with me doing the labor and 
on my free time. I would like to get them back in the house. 
They do not have the money to go back in there and pay for the 
lumber. I don't have the money to do it. But I've been helping 
them out, giving them a place to stay since then. Nobody has 
offered anything except for the Red Cross, and I want to thank 
them. They gave my parents $500. The insurance company gave 
them zilch.
    (Applause.)
    Chairman Manzullo. Thank you.
    Ms. Murphy. Good evening, sirs. Thank you for listening to 
all our appeals. My name is Lorraine Murphy and my husband 
sitting over there is Michael. We've lived in our home for over 
30 years and we were hit by the grace of God we did not lose 
our foundation as the many homes around on our street. We live 
one block away from Keith Creek.
    So the boats that they talk about came up and down our 
street and we did witness many of our neighbors that were 
strongly affected by the flood, many of them were Hispanic. 
They cannot speak English and some of them have reached out for 
help, but they are at a loss.
    I want to also thank the County Board Member John Eckburn. 
He's done a lot for our community and I wanted to publicly 
thank him for the services that he has provided. He helped us 
with volunteer assistance to help the people in our 
neighborhood.
    Chairman Manzullo. Lorraine, the extent of your damage, the 
amount?
    Ms. Murphy. Sir, I'd say it's about $25,000. We do not have 
flood insurance, but we do carry homeowner's insurance. We have 
had assistance from Human Services and I'd like to thank also 
Jennifer Jaeger who has helped us with funds for a furnace and 
I have been working on that since after the flood. But I do 
appeal to you, sirs, on my behalf and on behalf of the people 
that are here for funding for us.
    Thank you.
    Chairman Manzullo. Lorraine, how much of that is structural 
damage, the $25,000?
    Ms. Murphy. Sir, I'd say about maybe $10,000 would be 
structural, yes, sir.
    Chairman Manzullo. All right.
    Ms. Murphy. Thank you.
    Chairman Manzullo. And we need your address.
    Ms. Murphy. 1608 6th Avenue, Flood Water City.
    Chairman Manzullo. Okay.
    Ms. Murphy. Thank you.
    Chairman Manzullo. Thank you, Lorraine.
    (Applause.)
    Chairman Manzullo. Hang on a second. Go ahead, please.
    Ms. Krebsbach. My name is Sandy Krebsbach. It's K-R-E-B-S-
B-A-C-H. I live at 817 13th Street, about half a block from 
Keith Creek. So there was about eight feet of water in our 
street and there--we live rather up on a hill and the water was 
like four feet up on the house. The back wall caved in. My 
husband got out with my son who came over to rescue him and the 
cat, but when they got out, I've seen one of the pictures of 
the firemen wading in water up to here and that's about how 
deep it was on them.
    The estimated damage to our home is $70,000.
    Chairman Manzullo. $70,000 in damage?
    Ms. Krebsbach. We're not living there. We're living with 
our son right now. We've been there since September 4th. I 
wasn't home--I was trying to get home, but he was the only one 
there. And the process of getting things taken care of has been 
very slow with the insurance company. We did have flood 
insurance, but we've gotten $15,000 and that doesn't even start 
to--
    Chairman Manzullo. That's all that they offered or that's 
all you have?
    Ms. Krebsbach. No, that's all we've been able to get so 
far. We've had quite a run around between the mortgage 
company's name being on the check trying to get more money from 
the insurance company and it's been a real hassle. And I told 
them last time I talked to them, I said you know, losing your 
home like this is one thing, trying to get it fixed is another 
thing because it's such a hassle trying to get the money from 
the National Flood Insurance Company through who we have it.
    We had the flood insurance, but it just isn't coming 
together very well at all.
    Chairman Manzullo. Okay, thank you, Lorraine.
    Ms. Krebsbach. Thank you.
    (Applause.)
    Ms. Jenkins. Hi, everybody. My name is Julie Jenkins. J-E-
N-K-I-N-S. And I live at 1644 8th Avenue. I purchased the home 
in May of 2004 and found out the day before closing that it 
required flood insurance. I pushed my closing back and because 
of that I took out a $5,000 deductible in order to purchase the 
home at such a late stage of the game.
    We weren't as severely affected as many. We were very, very 
fortunate. My house is the very last house on the east side. 
The house on the east side of me did not get any water. My 
neighbors on the west side had their basement filled to the 
rafters with water. My home, because it was remodeled and I 
have brand new windows in the basement, my basement windows 
held although the water was above them. We had water seeping 
through the walls and water seeping through the back stairway 
because it was over the doorwell.
    Our damage is estimated between, I've had a few different 
contractors come in and to get it to where it was because it 
was completely remodeled, it was our master bedroom, we no 
longer can occupy that space. Between $7,000 and $12,000 were 
estimates that I received. Our adjuster put our damage at 
$2,998.33, something ridiculous like that. And because of the 
$5,000 deductible, we won't receive anything from flood 
insurance.
    Our mortgage company has let us know, I can't take out a 
home equity loan because of the damage to my basement. It no 
longer is worth what it was. And that's the main part of my 
question is what's left when the water recedes? The mold 
problem is an extremely dangerous problem that a lot of the 
residents are facing and it's a health hazard and it's not 
going to go away on its own. What happens to my resell value of 
my home? Who's going to want to purchase it? It may never 
happen.
    Chairman Manzullo. I am going to have to cut you off, so we 
can get the rest of the witnesses up. We have all the testimony 
that we needed in that.
    Ms. Jenkins. I think 500 percent discrepancy in--I would be 
fired if my estimate was that off.
    Chairman Manzullo. Thank you.
    (Applause.)
    Mr. Pace. Good evening. My name is Dan Pace, P-A-C-E. I am 
Julie's next door neighbor. I did have approximately six and a 
half feet of water in my basement.
    Chairman Manzullo. Your address?
    Mr. Pace. 1648 8th Avenue. We had an estimate for the 
electric for almost $5,000 to redo my electric and a little 
less than that for my heating and air conditioning that was all 
submerged.
    We actually quit getting estimates after that because we 
had no idea how we were going to pay for this. I've been 
fortunate enough to have some--a lot of friends and family 
members help me. We have a lot of work yet to do and because of 
the rain that we've had today and apparently the soil is eroded 
from my yard because I now have water in my basement this 
evening before I left, I noticed water in my basement again.
    The soil is about six inches lower than what it normally 
was after the flood. During the flood, when the water was 
receding it was bubbling in my yard, like something I've never 
seen before, which makes me wonder what happened under there.
    Chairman Manzullo. What is the estimate of the amount it 
would take to repair your facility?
    Mr. Pace. I have no idea because with the furnace and the 
electric was close to $10,000, but I had three bedrooms 
downstairs, washer/dryer.
    Chairman Manzullo. Do you have any flood insurance?
    Mr. Pace. No. So I estimated, we've put 23 rolls of 
insulation up, probably about 65 sheets of drywall will need to 
be brought in, over 140 2 by 4s we brought in and put up. I 
have no idea what this would cost to finish the basement.
    Chairman Manzullo. Okay, appreciate your testimony. Thank 
you.
    (Applause.)
    Mr. Kirschbaum. Good evening. Thank you, Congressman, Mr. 
Mayor. My name is Tom Kirschbaum, K-I-R-S-C-H-B-A-U-M.
    Chairman Manzullo. Tom, could you speak more directly into 
the mic?
    Mr. Kirschbaum. I most certainly will, Congressman.
    Chairman Manzullo. Thank you.
    Mr. Kirschbaum. Wife and I and the kids, we moved into our 
McArthur Avenue, I'm sorry, McArthur Drive house back in--
    Chairman Manzullo. What's the address there?
    Mr. Kirschbaum. 1727 McArthur, in the Rolling Green area 
right across from Rolling Green School in 2000. We weren't 
required to have flood insurance because it's not a flood 
plain. Three times since we've moved in, water has backed up 
the sewer and has come into our yard. Well, in September it 
came up to our yard, it came up to our front doorstep, busted 
out a basement window and we ended up with eight feet of water 
in our basement.
    We just need the storm sewer in the front fixed as it's 
been promised. It's on the books for the City, but again, they 
had stated there's no funds available, but the plans are there. 
So that's where I think the Federal Government needs to help us 
out a lot in the City.
    Chairman Manzullo. The extent of your damage?
    Mr. Kirschbaum. Our damage, structural, about $20,000 and 
all of that has been repaired except for one little item, but 
now we have $20,000 on our credit cards. Anywhere from 12 to 23 
percent interest. And that's what's killing us right now, but 
we're one of the lucky ones. We were able to clean what we can, 
got it back, being out of the house for five months, or I'm 
sorry, five weeks with the assistance of the City. But it's 
hard. Thank you.
    Chairman Manzullo. Thank you.
    (Applause.)
    Mr. Moore. Hello, my name is Ted Moore, M-O-O-R-E.
    Chairman Manzullo. Your address, Ted?
    Mr. Moore. Ted.
    Chairman Manzullo. No, your address.
    Mr. Moore. Pardon?
    Chairman Manzullo. Address.
    Mr. Moore. 1653 6th Avenue. I was told by the gentleman 
that services my furnace that he could not do any repair work 
because he would be in trouble with the City of Rockford, that 
my furnace needed to be replaced and also I know that the 
repair costs to many of the--to repair many of the homes that 
we're dealing with here in this area is costing more than the 
market value of our homes.
    Chairman Manzullo. What is the estimate to repair your 
house?
    Mr. Moore. $1500.
    Chairman Manzullo. $1500?
    Mr. Moore. To replace the furnace.
    Chairman Manzullo. The furnace. What other damage do you 
have?
    Mr. Moore. That's about it.
    Chairman Manzullo. Okay. So you got by relatively lucky 
compared to some of the folks here.
    Mr. Moore. Yes.
    Chairman Manzullo. Okay, thank you.
    (Applause.)
    Mr. Rodriguez. Hello, my name is Tomas Rodriguez, R-O-D-R-
I-G-U-E-Z. We live at 901 13th Street.
    On June--end of June of this past year, my wife and I were 
trying to live the American dream by buying our first home. 
Unfortunately, we made one payment to our mortgage towards our 
home and we got flooded out on September 4th. We are here to 
ask you for help. We have already dropped $3500 into our home 
and the damage that we have estimated as anywhere from $30,000 
to $40,000. We have stopped working on our home now because we 
have run out of funds. So we are here to ask you not to allow 
my wife and I and all the other families that are affected from 
the flood of September 4th lose their American dream. Thank 
you.
    (Applause.)
    Chairman Manzullo. Thank you.
    Ms. Bradford. Good evening. My name is Philicia Bradford 
and I reside at 828 14th Street and 8th Avenue. First of all, 
I'd like to thank God for no one losing their lives in this 
horrible tragedy, because it was horrible watching it. And I 
thank God that--for the Red Cross and the Salvation Army being 
there for us on a daily basis every day, faithfully. God bless 
them all and the City of Rockford.
    July 5, '03 I resided at 427 Albert Avenue, the storm after 
the 4th. I was without power for 18 days and let me see, August 
13th of that same year, a month later, I lost my home to a 
tragic fire. I lost everything, my entire home, my two-story, 
three bedroom home. I moved over here on 14th Street November 
of '03. I've been here ever since. Like I said, Red Cross has 
been there for me for those tragedies, but I've never had 
assistance like--you never recover you know the hurt and pain 
and the anguish and the suffering and the lack of support that 
you needed that, if you have to ask somebody then, I felt like 
I didn't need help. I mean I didn't need, I wasn't worthy. So I 
didn't seek like I needed.
    Okay, and I come over here and I'm here for three years.
    Chairman Manzullo. Could you tell us the extent of your 
damage?
    Ms. Bradford. I have 11-year-old twin girls, one is going 
through counseling. The other is a straight A student. They 
attend Swinn Middle School. She lost her computer, all that 
stuff, everything that just is--and then like I said Salvation 
Army and the Red Cross and the City, they were there.
    Chairman Manzullo. Ma'am, could you tell us--did water come 
in your basement?
    Ms. Bradford. Oh, we lost everything in our basement.
    Chairman Manzullo. And you own this home?
    Ms. Bradford. And our garage. I'm a renter and by the grace 
of God, I have a good landlord. His name is Dan Morrissey. When 
I moved in, he told me there is no relationship, but anyway, he 
was there the very next day on the spot. He's still there 
working right now today. I mean and just seeing all this, all 
the debris still coming out of people's homes and all the hurt 
and pain and suffering that we've all gone through, God bless 
us all.
    My neighborhood looks like a ghost town. There's no 
children. There's no people. It's sad and it hurts me and God, 
please put it in your heart and within you to help us that lost 
what we no longer have, that we can't repair or replace and 
thank you. That's all I have to say.
    Chairman Manzullo. Thank you. Appreciate it.
    (Applause.)
    Ms. Branch. My name is Marsha Branch. I live at Sexton 
Drive, 1708.
    Chairman Manzullo. Will you spell your last name for the 
record, please?
    Ms. Branch. B-R-A-N-C-H.
    Chairman Manzullo. Go ahead.
    Ms. Branch. I don't know why but nobody mentioned the 
problems that we had with the hail, the day of the storm. There 
was hail also and we had about two feet of hail in the yard for 
two days and that damaged the roof, so the neighborhood, they 
needed new roofs. Some insurance are not paying for the roof.
    My basement had four feet of water in it. I came to this 
country 19 years ago because I believe in the American dream 
and I cannot believe that I'm living this nightmare here 
because I believe in America and I came here for better things.
    I have been suffering now with this, my house had sewage in 
it and after I clean myself because I couldn't afford anybody 
to clean, and now I have asthma and I have mildew, black mildew 
in my basement.
    Chairman Manzullo. Could you tell us how much damage to 
your basement in terms of dollars?
    Ms. Branch. Well, I need a new washer, new dryer, water 
heater, everything, furnace, and my basement was finished with 
wood paneling. We had to pull the paneling out to look behind. 
It's full of mildew. My house smells. The odor came from 
behind. I had family room in the back of the house. It was 
flooded. I had to throw furniture out, the carpet and 
everything.
    I asked for help, but by help I called the County and the 
County had the firemen. I met the Mayor the last time in a 
meeting in a church.
    Chairman Manzullo. Did you have insurance?
    Ms. Branch. I'm asking for help with my health because I 
haven't--
    Chairman Manzullo. Listen to my questions, okay? I need--
how much damage to the house in dollars.
    Ms. Branch. $20,000.
    Chairman Manzullo. $20,000?
    Ms. Branch. Yes.
    Chairman Manzullo. Did you have any insurance?
    Ms. Branch. No, I never knew I needed--
    Chairman Manzullo. You have no flood insurance?
    Ms. Branch. No. Nobody ever told me that. I do have 
cleaning, I worked for 19 years cleaning houses here.
    Chairman Manzullo. I need your address and then I want to 
get on with the rest of the witnesses?
    Ms. Branch. 1708 Sexton.
    Chairman Manzullo. Sexton.
    Ms. Branch. Yes.
    Chairman Manzullo. Thank you very much. Is that in Rolling 
Green? Keith Creek, okay. Thank you.
    (Applause.)
     Mr. Vandergrift. My name is Adrian Vandergrift. It's kind 
of long, V-A-N-D-E-R-G-R-I-F-T. My wife and I own a small four-
unit apartment building on the addresses 4418 Yale Drive. It's 
located just southwest of the Harrison and Alpine intersection 
in Rockford. On September 4th, the basements in the building 
quickly flooded. One was filled with about seven feet of water 
and then the other one was filled with about six feet of water. 
Our repair costs were $12,000. That was clean up, four furnaces 
and four water heaters. That does not include the loss of 
personal property, the residents' personal property.
    We did not have flood insurance. We do now, even though I 
found out we're not in the flood plain and we're apparently in 
an extremely low-risk area. We got flooded. So we've got it now 
and we did what we had to do to get the property cleaned up as 
quickly as possible to get the folks back in, but since we 
didn't have flood insurance, the $12,000 came out of our 
personal finances and we're a single-income family. Our 
property wasn't condemned, but it still did cost $12,000. I 
know there's a lot of folks who got hit a lot harder than we 
did, so any assistance would be greatly appreciated.
    Chairman Manzullo. Thank you.
    (Applause.)
    Mr. Sales. My name is Tim Sales. S-A-L-E-S. Thanks, 
gentlemen, for coming out. I live at 913 13th Street. We were 
one of the people who had the basement wall collapse in. We did 
have flood insurance. Our insurance gave us a check for 
$19,000. That doesn't even begin to cover half. They will not 
pay to replace the wall, what it would cost to bring it up to 
city codes. They'll only replace it the way it was, as it was 
built in 1934. We did not know that the house did not have 
footings under the wall and that's part of the code 
requirement. And so for us, we are in the process of filing 
bankruptcy. We had flood insurance. We did everything we 
thought we could do. We went to the bank to ask for a loan 
because we had been in the house two years, we don't have 
equity. We don't have cars as collateral because of the flood. 
And our mortgage company was not willing to give a deference or 
anything like that to help. So we are in the process of losing 
our first house.
    Obviously, no one planned for the flood and no one could 
have stopped it, but we're just kind of at our wits' end. We 
can't get more help from the insurance company. They won't help 
and that's what I would say the total damage is over $45,000 
and they gave us a check for $19,000.
    Chairman Manzullo. Did they say why they wouldn't pay you 
more than $19,000?
    Mr. Sales. Part of it was replacing the wall, so we have to 
put in footings underneath the basement wall that collapsed. 
There weren't any footings before, but that's part of the code. 
It was unreinforced cinderblock. They'll pay to replace that, 
but that's not up to code. And then they took off everything 
you can think of in terms of depreciation. They took off 
depreciation of the paint on our garage, depreciation of wood 
on the garage. Anything you can think of, they took off for 
depreciation.
    Chairman Manzullo. Do you want to tell us the name of your 
insurance?
    Mr. Sales. It's Hartford.
    Chairman Manzullo. Okay. Thank you.
    Mr. Sales. Thanks.
    (Applause.)
    Chairman Manzullo. Why don't you pull the mic down there. 
Thank you.
    Ms. Arnold. Akeeno Arnold. 811 15th Street. My family and 
I--I spoke before, we were affected by the flood. We'd like to 
extend our thanks to the Human Services Department and the Red 
Cross. Thank you, a lot--Cindy, for really helping us out.
    Due to the flood, we apparently lost a lot and we just kind 
of want to know, with the reconsideration of FEMA helping out, 
how long will it take to make another decision and when will 
repairs begin and how much would people receive if there was 
something to happen?
    Thank you.
    (Applause.)
    Chairman Manzullo. Thank you.
    Ms. Serrano. Good evening, my name is Terry Serrano, S-E-R-
R-A-N-O. I live at 2626 Sculke Drive and the back yard is on 
Harrison Avenue that is being fixed. Our front yard wasn't 
flooded, but the back yard was. It was the Mississippi. And we 
have the mud flats in the basement. And if the toilet hadn't 
kept flushing, it would have been deeper. But God bless the 
toilet, it kept flowing open.
    I would estimate at this time, sir, that it's going to be 
close to $15,000. My mother is 86 years old and we are the 
original owners of the home. I live with my mother because Mayo 
Clinic said she needed 24 hour care. She had an aneurysm about 
14 years ago. I guess they didn't expect her to last that long, 
but they didn't know how strong my mother is. So we are at home 
with my mother taking care of her and trying to help--
    Chairman Manzullo. This is your mother's home that suffered 
the damage?
    Ms. Serrano. Yes, but she did also finally put the home in 
my name, but we were unaware that there was not flood insurance 
because we were never told we were on a flood plain when the 
property was first purchased.
    Chairman Manzullo. The extent of your damage?
    Ms. Serrano. Pardon?
    Chairman Manzullo. The amount it will take to fix your 
damage?
    Ms. Serrano. About $15,000.
    Chairman Manzullo. About $15,000?
    Ms. Serrano. So far that's what we've been putting out 
ourselves to fix.
    Chairman Manzullo. Okay.
    Ms. Serrano. We would have gotten the insurance, if we had 
known. Homeowners insurance won't pay anything because they say 
it's an act of God. I'm sorry, we're not bad people here in 
Rockford for God to punish us and I don't think the insurance 
company should punish us either.
    Chairman Manzullo. Thank you very much.
    Ms. Serrano. Thank you.
    (Applause.)
    Mr. Giardina. Hello, Nick Giardina. G-I-A-R-D-I-N-A. I'm 
next door neighbor to Bev Hanson. I watched her garage float 
away to Churchill Park Creek, right next door. We had $25,000 
damage. It's all disaster loans. I know the place I'm working 
at is closing.
    Chairman Manzullo. This is to your home?
    Mr. Giardina. Yes, it was my parents house. I took over it. 
It was where I was raised.
    Chairman Manzullo. Okay, and the cost of repairs is 
$25,000?
    Mr. Giardina. $25,000 all together.
    Chairman Manzullo. Any insurance?
    Mr. Giardina. Yes, they paid like $900 for roof damage from 
hail, Liberty Mutual.
    Chairman Manzullo. But you didn't have flood insurance?
    Mr. Giardina. No.
    Chairman Manzullo. Okay.
    Mr. Giardina. I know they already announced their jobs are 
leaving to Singapore April 24th, so I got like $25,000 new debt 
and like six, seven months of work.
    Chairman Manzullo. Thank you.
    (Applause.)
    Ms. Betancourt. Hello, my name is Maria Betancourt.
    Chairman Manzullo. Bruce, could you get that mic, a very 
soft-spoken lady. Go ahead. Do you want to start all over 
again?
    Ms. Betancourt. Maria, M-A-R-I-A. B-E-T-A-N-C-O-U-R-T.
    Chairman Manzullo. Chris, why don't you take that mic off 
that stand there. There you are. Go ahead.
    The Interpreter. Her name is Maria Betancourt, it's B-E-T-
A-N-C-O-U-R-T.
    Chairman Manzullo. Okay, go ahead and your address?
    The Interpreter. Her address is 815 15th Street.I was one 
of the citizens or residents that was damaged. My basement was 
flooded with water. I lost everything that was inside. 
Presently, what is working is only the water heater. We were 
able to repair that because it was a necessity. Right now we 
are in need of heat. Our heat is not working. When we have 
visiting from our grandchildren, they have to leave early 
because of the cold. Presently, I am the only one working. My 
husband is not able to work as he has a disability. The cost to 
repair the heating system is very expensive and it's something 
that I am not able to do at the present time.
    I'm just wondering if it is possible for the economics of 
repairs to be given. It will be very thoughtful and thank you.
    Chairman Manzullo. Could you give us an estimate of the 
cost to fix?
    The Interpreter. Between $8,000 to $9,000.
    Chairman Manzullo. About $9,000. Did you have any 
insurance, any flood insurance?
    Ms. Betancourt. No.
    Chairman Manzullo. Thank you.
    (Applause.)
    Ms. Torres. Hi, my name is Sylvia Torres. I'm at 1305 
Charlotte Drive.
    Chairman Manzullo. Will you spell your last name, Sylvia?
    Ms. Torres. T-O-R-R-E-S. I came from Chicago going on five 
years and within the five years I worked really hard to get 
where I'm at. I purchased my first home and I was only there 
for five weeks when we got flooded. My house and my car got 
flooded and I still had to work. I had to go to work with water 
in my family room downstairs. All my furniture and belongings 
were downstairs. All together, it's about $25,000 to $30,000 in 
loss.
    Chairman Manzullo. $25,000 to $30,000?
    Ms. Torres. Yes, my insurance, they denied me over the 
phone.
    Chairman Manzullo. No flood insurance?
    Ms. Torres. No flood insurance. I'm not in a flood zone 
area. Hail and wind and still no help, but I'm just here to ask 
you to reconsider and not look at us as stories, as 
testimonies, but look at us as victims, as hard working people. 
We've come a long way to become home owners. We don't have the 
salaries some of you do.
    Chairman Manzullo. Sylvia, are you living in your home now?
    Ms. Torres. I am living in my home. I didn't lose it like 
some of the other victims.
    Chairman Manzullo. Is your furnace working?
    Ms. Torres. Now it is. Still, I still have to have somebody 
come out because now that the cold weather has started, the 
pilots turn on and off, but I need heat. I have three children.
    Chairman Manzullo. So you have no heat?
    Ms. Torres. I keep it on.
    Chairman Manzullo. I see, it's on all the time.
    Ms. Torres. I turn it on, whether the pilot is shutting on 
and off. I still keep it on. We need to live. We need heat.
    Chairman Manzullo. So the furnace needs to be repaired. Do 
you have any estimate, or that's part of the $25,000 to 
$30,000?
    Ms. Torres. Right. Okay. I had water come in from the back 
of my yard with everybody's water coming in to my basement, 
family room, but just take a look at us. We're all hard 
workers. Like I say, we don't have the salary everybody or you 
gentlemen have.
    Chairman Manzullo. Okay. Thank you very much.
    Ms. Torres. Thank you.
    (Applause.)
    Ms. Madrigal. My name is Erica Madrigal and I don't speak 
English too much, but I lose my basement too and I lose a lot 
of things. So I think we need a lot of money to fix.
    Chairman Manzullo. Could you give us your address?
    Ms. Madrigal. 824 14th Street.
    Chairman Manzullo. You had water in your basement?
    Ms. Madrigal. Yes.
    Chairman Manzullo. How much water?
    Ms. Madrigal. Full basement.
    Chairman Manzullo. It went all the way to--
    Ms. Madrigal. Almost to first floor.
    Chairman Manzullo. Almost to the first floor?
    Ms. Madrigal. Yes.
    Chairman Manzullo. And how much damage in dollars?
    Ms. Madrigal. About $20,000.
    Chairman Manzullo. About $20,000?
    Ms. Madrigal. Yes.
    Chairman Manzullo. Do you have any flood insurance?
    Ms. Madrigal. No.
    Chairman Manzullo. And are you living in the home now? Do 
you live in the home now?
    Ms. Madrigal. Yes. I fixed the air conditioner and I fixed 
the heater, so I put up like $13,000. So we need more money to 
fix the basement.
    Chairman Manzullo. Okay.
    Ms. Madrigal. I want help, you know.
    Chairman Manzullo. Thank you.
    (Applause.)
    Ms. Pierce. Thank you for hearing us. My name is Betsy 
Pierce, P-I-E-R-C-E. 1320 7th Avenue. I feel very lucky. I only 
had four inches of water in my basement. My next door neighbor 
got six feet. I have flood insurance. My losses are about 
$6500. $4,000 of that is for a swimming pool. Granted, it 
shouldn't be covered, it's in my backyard. Flood insurance 
doesn't cover anything outside the house. It's my son's 
favorite play space. He's special needs. I can't afford to fix 
that. The carpeting that was in the basement, I'm not going to 
get anything for that. I took minimal flood insurance, $1,000 
deductible. It took $1,035 to have somebody to come in and dry 
and pull the carpet out in order to put it back in, I have to 
eat that expense.
    I'm a single mother. I can't do that. If you can't help us 
and I understand that you have guidelines you have to follow, 
then maybe somebody needs to get these insurance companies to 
do what they're paid for.
    Chairman Manzullo. Thank you.
    (Applause.)
    Mr. Penzk. Hi, my name is Richard Penzk and I live at 2528 
Holmes Street. Actually, I don't live there, my son-in-law 
lives there and he owns the building.
    Chairman Manzullo. Is he the owner of the home?
    Mr. Penzk. Yes, he's buying it under contract.
    Chairman Manzullo. Do you want to spell your last name for 
the record?
    Mr. Penzk. The reason I am speaking for him is he does not 
speak too well English.
    Chairman Manzullo. Do you want to spell your last name?
    Mr. Penzk. P-E-N-Z-K, P as in power.
    Chairman Manzullo. So you're speaking on your son-in-law's 
behalf?
    Mr. Penzk. Yes.
    Chairman Manzullo. And his name?
    Mr. Penzk. Jozef, J-O-Z-E-F, Stefanski, S-T-E-F-A-N-S-K-I.
    Chairman Manzullo. And the address again?
    Mr. Penzk. 2528 Holmes Street.
    Chairman Manzullo. Holmes Street, okay, go ahead.
    Mr. Penzk. We live right across from son's plant. I own 
that building at first since 1980. And I never had any problems 
until they started to build Herson Road, fixing that. And the 
draining ditch has grating, the grating has only 12 by 12 
inches holes and that gets clogged up by a small rain, just 
with leaves and little brushes. As the rain comes down, it just 
works its way up and then it just clogs the holes, drainage 
ditch.
    After you are flood, as a matter of fact, you have those 
pictures.
    Chairman Manzullo. Did water go into your son-in-law's 
basement?
    Mr. Penzk. Yes, that's right.
    Chairman Manzullo. How much water?
    Mr. Penzk. The water went up five and a half feet. 
Actually, almost six feet.
    Chairman Manzullo. Six feet.
    Mr. Penzk. We lost six furnaces, seven hot water heaters, 
two of the furnaces were only four years old and two of the hot 
water heaters were only one year old. I worked as a maintenance 
man all my life long for a major corporation here in the 
Winnebago area and the same night he couldn't get no one to 
come to the basement. I went--I used his big pump, pumped the 
basement. It took me six hours. Next morning, I lit all the 
furnaces, all hot water heaters and he pulled all the walls 
down. He got like 400 running feet because it's a big building. 
It's a six family. So it's a 100 feet this way and 100 feet 
that way and all the different rooms to get drywall on both 
sides. So as the inspectors will know we have to pull down the 
drywall the very next day. We worked like six weeks with the 
whole family until 10, 11 o'clock, midnight.
    Chairman Manzullo. Was there any insurance available? Did 
you have any flood insurance?
    Mr. Penzk. No.
    Chairman Manzullo. What's the extent of the damage?
    Mr. Penzk. At least $60,000.
    Chairman Manzullo. This is on a six-family home?
    Mr. Penzk. Yes.
    Chairman Manzullo. Did your son-in-law occupy one of the 
units?
    Mr. Penzk. Yes. Actually, I had all the heaters lit, and 
hot water heaters lit, but the inspector asked us to replace 
them, which we did. The only thing we did not replace is two 
down-draft heaters and that's another issue. I have to take 
that up with them--I don't want to get into details.
    Chairman Manzullo. Thank you very much.
    Mr. Penzk. But one thing I want to tell you, I learned one 
lesson. Do not piss off the inspectors. Don't do that. I paid 
my price.
    (Laughter and applause.)
    Chairman Manzullo. All right. Go ahead, please.
    Mr. Nunally. My name is Glen Nunally.
    Chairman Manzullo. Do you want to spell it for the record?
    Mr. Nunally. N-U-N-A-L-L-Y.
    Chairman Manzullo. Okay.
    Mr. Nunally. I live at 626 16th Street. And have been there 
almost 48 years. I don't have flood insurance because when we 
moved there that wasn't considered flood area. So I figure I 
came out ahead regardless. Because I didn't have to pay that 
$500 or $600 a month for flood insurance. I lost probably 
$12,000, $15,000, furnace is gone, hot water heater and all the 
clothes and everything we had down there.
    So I'm just thankful to you for asking for this help for 
all the people. I took care of that part myself. I worked hard 
in Rockford for 43 and a half years at one place and I had 
enough money to pay for it, but I never seen water come that 
fast in all the 48 years that will be next, just before 
Christmas, 48 years ago we moved there. I've seen it get up to 
the first step, but they always monitored. I went to Mayor, 
they've always monitored on 15th Avenue somebody would be down 
there monitoring that and talking with people at the dam up 
there, to close or open the doors. And I think they were a 
little late getting there on this one.
    I lost the furnace. It didn't do damage to my walls or 
nothing because I live in an old house. It's got pretty thick 
walls to it. But blew the windows out, the west window and the 
south window, the water just came in up to one step going into 
my living room.
    My truck was parked outside. We had visitors from out of 
town and we were shopping. And didn't know all this was going 
on. My son, when he got out of work, he ran over to the house. 
The water was coming out when he opened the door, water was 
coming out of my truck.
    Chairman Manzullo. Glen, thank you. Appreciate--
    Mr. Nunally. But there's one other thing I want to mention, 
if I may. All of those new bridges they put in there by--this 
is directed to the Mayor, all those new bridges they put in 
there by McDonald's, by the grocery store, I saw that years 
ago. It was before your time, Mayor, and I said that's beaver 
engineering if I've ever seen it because it catches everything 
that comes down with the boxes they got under the supports. And 
I would like to ask the Mayor what are we going to do about 
that creek? Nothing is done. From the wall green, the trees are 
growing up out of there. The dirt, there's places, I can see it 
from my house.
    Chairman Manzullo. Glen, I want to get on with the rest of 
the witnesses here.
    Mr. Nunally. I didn't realize we had a--
    Chairman Manzullo. That's okay, thank you very much. We'll 
talk to you later on.
    (Applause.)
    Chairman Manzullo. Is it Mr. Torres?
    Mr. Escobar. I'm Jose Escobar, Sylvia Torres' husband.
    Chairman Manzullo. I'm sorry.
    Mr. Escobar. I know she already spoke, but I felt I had to 
say a couple of words. I wanted to voice my opinion.
    Chairman Manzullo. You've got to stop moving and you got to 
talk into the microphone.
    Mr. Escobar. I'm sorry, I had a bad back. Anyway, you know, 
I just don't understand the fact that things have to be 
reconsidered as far as FEMA comes in and I mean, sometimes life 
is a struggle, but when we have insurance companies to back us 
up, they like to take our money as fast as they want to sell us 
the policy, you know. As fast as they take the money, when 
something as fast as this happened to us, Mother Nature cries 
or something, we want what's ours and they just seem to like to 
quote words over the phone, don't even send an agent down. I 
think there should be stricter rules against insurance 
companies, you know, when it comes to times like this. I mean 
fair is fair.
    Chairman Manzullo. I'm going to have to cut you off because 
I want to get on with the rest of the witnesses. It's a quarter 
past nine.
    Mr. Escobar. To rest my case, I just want to FEMA please 
help these people that are in need. I'm used to struggling as a 
young father, but times like this, me and my wife normally 
don't come out when we break a finger. We break an arm or lose 
your head, it's something serious. I see a lot of families that 
are looking forward to just getting what belongs back to them 
to get on with their lives. Thank you.
    Chairman Manzullo. Thank you. Mike, go ahead.
    Mr. Bonavia. Yes, Mike Bonavia. I'm a senior electrical 
inspector for the City of Rockford.
    Chairman Manzullo. Spell your last name for the record, 
Mike.
    Mr. Bonavia. B-O-N-A-V-I-A.
    Chairman Manzullo. Okay, go ahead.
    Mr. Bonavia. We've heard so many tragic stories here 
tonight and of course there's probably hundreds of them that we 
haven't heard, that people weren't able to come for one reason 
or another. But anyhow, one thing that we might have in the 
future is more tragedies and one of the reasons is because the 
basements that were flooded, the panels were submerged and 
those panels now may never have a breaker trip or anything like 
that. Once they're under water, according to the NEMA standards 
which is the National Electrical Manufacturers Association, 
they may not work, they probably wouldn't.
    And so it amounts to putting pennies in fuses, so we could 
have tragedies in the future from all these people that have 
their power on and think they're safe. Without money coming 
forward from somebody, these people are not going to get these 
things updated and corrected, and so they're living with an 
extremely dangerous situation. That's all I have to say.
    Chairman Manzullo. Thank you, Mike.
    (Applause.)
    Mr. Vronch. My name is Jim Vronch. That's V-R-O-N-C-H. I'm 
one of the senior building inspectors for the City of Rockford. 
I was the one that had to condemn all of the houses that I had 
to go out into. Just to let you know I had to look in these 
people's faces. It was sad. The people that come here and talk 
to you, I'm a professional at this. I was a carpenter for 18 
years and I built houses here in Rockford.
    The Congressman is asking them for estimates on their 
houses. They don't have any idea. They're guessing. Right now, 
the Building Department is figuring $25,000 to $30,000 just to 
replace your water heater, your furnace and your electrical 
box. And half the people that are here, there's another whole 
half of them that are scared to come here because they don't 
want to call us because we would have to come out and maybe 
have them move out of their house because it's dangerous. A lot 
of people don't speak English well enough to understand that 
they need help. And I just want to say don't be scared of the 
Building Department. We're here for these people's safety.
    Like I said, only half of them are here. And come this 
winter when they start firing up these furnaces and water 
heaters and we get explosions and fire, which the Fire 
Department will tell you about this. And another thing that 
concerns me is come winter time. I've seen basement walls that 
are heaved in. Well, once they want to heave back out, come 
this winter and we get snow, the snow is going to melt and it's 
going to heave those basements back in again and you're going 
to see more trouble than we had with the flood.
    Thank you.
    Chairman Manzullo. Thank you, Jim.
    Mr. Gray. How are you doing? My name is Antoine Gray, G-R-
A-Y. I stayed at 2828 Holmes in the basement apartment. It was 
flooded really bad. Everything was lost. I just basically got a 
comment though. I don't think it make no sense, you have to 
have two hearings and an appeal to help people out. People lost 
everything and it really don't make no sense. I'm a younger 
guy, so you know, it's really not to hard for me to bounce 
back, but there's people in here that's 50 and 60 years old 
that can't go back to work or can't do nothing, you know. It's 
just taken a lot of time. Labor Day was three months ago, two 
months ago. That's a long time to help somebody, especially a 
senior citizen. That just don't make no sense.
    Thank you.
    (Applause.)
    Chairman Manzullo. Thank you.
    Mr. Friel. I'm Ned Friel, senior mechanical inspector for 
the City of Rockford. F-R-I-E-L.
    I've done the majority of the inspections for the furnaces 
that have been replaced and the duct work. We've probably done 
100 inspections. We have a bunch more to do. There's a lot of 
damage out there, but one of the important facts that's 
happening is as the ground is drying out, the foundations are 
cracking. Some of these guys aren't seeing that, but when I go 
in and see the furnace, I see the cracks where the window was 
and from the ground settling from it drying. You're going to 
have more problems. And it's not going to get reported because 
the people aren't going to call us back. So next spring, after 
the freeze/thaw, when the walls are down again, you're going to 
have the same problem.So I don't know what you're going to do 
with it.
    Chairman Manzullo. So the figure of 67 homes with serious 
damage, you think that's under estimated?
    Mr. Friel. Come spring, it will be, definitely.
    Chairman Manzullo. By how much?
    Mr. Friel. Well, in the last month, there's probably 10 
places I've been to where the cracks are there. They're not the 
spider cracks. You can stick your finger through the crack and 
people say well, I never saw that before. So what do you do?
    Chairman Manzullo. And many of those people, their names 
are not even on these charts?
    Mr. Friel. No. And the charts don't have the people that 
have reported anything because like Jim said, they're afraid. 
And I don't know. I don't know what you guys are going to do.
    Chairman Manzullo. Thank you.
    (Applause.)
    Chairman Manzullo. Yes, sir.
    Mr. Benson. My name is Jeff Benson. B-E-N-S-O-N.
    Chairman Manzullo. That's an easy one.
    Mr. Benson. I'm a heating contractor. Do mainly service 
work, but I've been out in the area here working on some of 
these homes. There are people here that know me.
    The buzzards are out there, boys. I've seen them. I'm from 
this town. I was born here. I don't price gouge them, not like 
the gas boys and everything else. But the guys from out of town 
are coming in. They're jacking prices up.
    A few years back, the Federal Government, I was in the Navy 
Reserves, and they asked me to do a job. They couldn't get 
anybody else to do it. So I went. Gave up my job here for a 
year. I went and did it. I made it home. It was nothing big. 
But I went and did it when they asked me.
    These people need help. I've been out there. Seen it.
    Chairman Manzullo. Thank you, Mr. Benson.
    (Applause.)
    Mr. Morrissey. Thank you very much. I want to thank all of 
our citizens who have come here tonight and who had the courage 
to stand up and it isn't an easy thing. I think a lot of the 
comments were right on point when they said the truth which is 
a lot of people are here tonight, but we know there's a lot 
more that are at home, a lot of people because of their age or 
other conditions weren't able to be here. So our thoughts and 
our message includes all of them, even though they couldn't be 
here this evening.
    I've got a few questions which I'd like to start with this 
evening to our representatives from FEMA and frankly, I open up 
the questions to either General D'Araujo or Mr. Buikema, 
whomever can help us answer this.
    As a Mayor who has been trying to help our citizens go 
through this crisis, go through this disaster, you know, I get 
a one-page letter back from FEMA in October in which our 
request for support was denied. Out of all the factors under 
the Stafford Act, the main thing that was said in this letter, 
with very little, basically no support behind it, was this 
statement: ``that the damage to the private sector in the City 
of Rockford and portions of Winnebago County was not of such 
severity and magnitude as to be beyond the capabilities of the 
State and affected local governments.''
    I'd like to know from FEMA's standpoint how do you reach 
that conclusion, especially in light of what you know about the 
conditions of the State of Illinois, the fact that the State 
doesn't have an individual assistance program and the 
particular numbers of individuals, the folks represented in 
this room, the millions of dollars in uninsured claims and 
damage, how can FEMA reach that conclusion?
    Gen. D'Araujo. First of all, let me go back to the comment, 
we discussed this previously, Mr. Mayor. None of those factors 
are considered in isolation. The severity and magnitude issue 
relates to the whole notion of all the collective resources of 
the State and local VOLAGs. FEMA is not the first resort. It is 
after those have been brought into play.
    When you look at all the factors we discussed in the 
discussion here, that was what brought the conclusion to where 
it went.
    Mr. Morrissey. I guess I would ask and if you don't know 
tonight, I guess that's a fair statement to make or if there's 
others in FEMA that we would point to for the answer, I'd like 
to know that, but in our particular case, I understand that 
certainly as a statement of conclusion, it could be determined 
that the event was not beyond the magnitude and severity to be 
beyond the capabilities of the State and local governments. I 
guess the kinds of things I'm wondering was there an 
examination of the City's budget? Was there an examination of 
the current demands in our budget? Was there an examination of 
the State's budgetary size to reach the conclusion? Were those 
types of specific elements considered in this case, because 
again, it goes back to what I stated in my original comments. 
I'm a trial lawyer by trade prior to becoming Mayor, and I'm 
always looking for a record to be able to respond to when we 
have to do an appeal and conclusory statements made that it's 
not beyond our local capabilities. So I guess what I'm looking 
at is there some data that has not yet been provided to us that 
would included an analysis of the State's budget or our local 
budget or some other factors that led to the conclusion that we 
can handle it?
    Gen. D'Araujo. Again, I would say that we aren't looking at 
the State budget or your budget here in Rockford as an isolated 
case. What we have to look at is has the City and State 
prioritized their resources to deal with this kind of event? I 
know we talked about the State not having an individual 
assistance program per se. But what other mechanisms are there 
through social service mechanisms--
    Chairman Manzullo. I have to interrupt at this point.
    Gen. D'Araujo. Sure.
    Chairman Manzullo. Whenever you make a statement, and this 
is signed by Mr. Paulison and I asked him to personally review 
this case. I talked to him twice on this. Somebody has made a 
statement here that says ``it has been determined''--that means 
that FEMA has made a decision based upon a factual analysis--
that's what determination means--``the damage to the private 
sector in the City of Rockford and in portions of Winnebago 
County was not of such severity and magnitude as to be beyond 
the capabilities of the State and affected local governments.''
    You have to be able to prove that.
    (Laughter.)
    You have to prove it. That's what this is about.
    (Applause.)
    Mr. Buikema, please, you have made a statement. It doesn't 
have to be notarized. I want to know on what do you base that? 
Tell me what State and local programs are available for these 
people?
    I need to know that. You have to know that before this 
letter goes out from FEMA because you have to prove a negative 
in order to come within the parameters of the Code of Federal 
Regulations. If you don't know the basis for the denial, then 
Mr. Paulison has signed a letter that is not factually correct.
    Gen. D'Araujo. I think Mr. Paulison's letter is correct.
    Chairman Manzullo. Then you have to tell us. Tell the 
Congressman that represents these people, the Mayor of the City 
of Rockford, and would you tell these people why you are 
denying this request. You've heard incontrovertible conclusive 
evidence from the State of Illinois and from the City of 
Rockford that there's no help available for these people. Can 
you tell me how FEMA came to the conclusion that there are 
State and local resources available? Or is this just jargon 
that you put into a standard denial letter? We have a right to 
know that.
    Gen. D'Araujo. It's not a standard denial, Congressman.
    Chairman Manzullo. This is very specific. You have to prove 
to us, you have to be able to stand behind this document. This 
is why we're having this hearing. I ask you again, can you tell 
me what State and local resources are available to help these 
people? I'm entitled to an answer.
    (Applause.)
    And I'm not going to adjourn this hearing until I get an 
answer.
    Gen. D'Araujo. Congressman, I can tell you--
    Chairman Manzullo. If you don't know, just say you don't 
know. I'll accept that.
    Gen. D'Araujo. I can tell you the process that we went 
through.
    Chairman Manzullo. I don't care about the process. I want 
an answer to my question. It's a fair question.
    Gen. D'Araujo. I don't dispute that's a fair question.
    Chairman Manzullo. Then give me an answer.
    Gen. D'Araujo. The answer is, Congressman, that it's 
looking at the--
    Chairman Manzullo. No, no, no. It's a very specific--if you 
had come out and said this is denied, that's tough. That's one 
thing. We would have understood that. But you have made a very 
specific statement of a set of circumstances that does not 
exist. Mr. Buikema maybe could help me out. I want to know, 
again, the same question. What resources are available from the 
local and State government to help these people? I want an 
answer to that question. If you don't know, say you don't know. 
The answer is there are none. Can you accept that as part of 
this hearing?
    Gen. D'Araujo. Well, Congressman, I can't accept that based 
on the fact that when the size and magnitude of the damage with 
all the combination of State, local and voluntary agencies--
    Chairman Manzullo. There is no help available for these 
people. Why is this so hard? Can you tell me? I am entitled to 
know as a Member of Congress and somebody who passes your 
budget, and that's going to come up again. And you remember 
there was one Member of Congress that defended FEMA in that 
mess down in New Orleans and I was down there. One Member 
defended FEMA and the SBA, one out of 435. It's this Chairman 
of the Small Business Committee. If I had known that you made 
arbitrary decisions like this, with no factual material, I 
would have been all over you. And I defended you.
    (Applause.)
    I am entitled to an answer. I want to know. Once more I'm 
going to ask you that question. What resources are available, 
State or locally to help these people?
    Mr. Buikema, name me the programs?
    Mr. Buikema. Sir, I can only make suggestions.
    Chairman Manzullo. No. I want an answer to my question or 
you're going to sit here all night.
    Mr. Buikema. What I would like to say is based on these 
kind of circumstances elsewhere I know that in many cases and 
other States, they have looked towards their Housing 
Authorities at the State level, looked at community development 
block--
    Chairman Manzullo. That's in other States. This is this 
State, rated number 50 in fiscal responsibility. This City led 
the nation in unemployment in 1980 at 25 percent. We have lost 
a quarter of a million manufacturing jobs last year; 18,000 in 
this City. There's a man over here who just lost his job. It's 
going to Singapore. You tell me, don't guess what other States 
do. You tell me what goes on in Rockford and the State of 
Illinois. I don't care what goes on in other States. That's 
another standard to be determined.
    (Applause.)
    You guys never asked the question. You never asked the 
question when you put out this boilerplate letter. You've got 
to stand behind it. I want to know, again, what State and local 
programs are available to help these people?
    Mayor, is that a fair question?
    Mr. Morrissey. I think so.
    Chairman Manzullo. I want an answer. If you don't know, you 
don't know. Mr. Buikema, did you ever make a diligent study as 
to what services were available from the State of Illinois and 
the City of Rockford to help these people monetarily?
    Did you ever ask the Mayor what was available?
    Mr. Buikema. Did I personally? No, sir.
    Chairman Manzullo. Did anybody from your staff ask the 
Mayor?
    Mr. Buikema. I do not know, sir.
    Chairman Manzullo. Did you ever get an answer from FEMA?
    Mr. Buikema. No I didn't, sir.
    Chairman Manzullo. No one asked the question, but you came 
up with a conclusion. Can you see why these people are upset?
    I want the let the record know, the record will indicate 
that FEMA has refused to answer this question, posed by Mayor 
Morrissey and myself.
    In a letter dated October 20, 2005, this was engineered by 
Mr. Buikema, who is in charge of this area, a statement has 
been made in this letter, signed by Mr. Paulison. The statement 
is ``it has been determined that the damage to the private 
sector in the City of Rockford and in portions of Winnebago 
County was not of such severity and magnitude as to be beyond 
the capabilities of the State and local affected governments.''
    I've asked that question several times. Both witnesses have 
refused to answer.
    Proceed, Mayor.
    Mr. Morrissey. A couple of points I'd like to raise. Number 
one, we've since raised, since the October 20th letter, 
hopefully some additional information for FEMA's consideration 
in our appeal that will lead to a positive outcome and a 
positive determination. And I think the new data that we have 
made available, the continued work of all of our City staff, 
the folks in Human Services, our Building Department, Fire and 
Police, everyone who has been out surveying the actual damage, 
as you've heard tonight and you see up on the spreadsheets that 
we have, we're making part of our record, part of our appeal 
and we believe justifies under the elements of the Stafford 
Act, a positive determination on disaster declaration and 
assistance for the individual assistance program.
    What I'm seeing, and again, I go back to the practice of 
law and our Constitution which even in the case where there's 
significant discretion given to administrative body like FEMA, 
we know that the Constitution will not allow for arbitrary and 
capricious determinations and we look for a basis in the 
Constitution to support a denial or a support of our rights as 
citizens in this country and we all, in our federal system, 
we're all citizens of the United States. And we're looking for 
support from that same country that provided assistance in 
October of 2005 in New Hampshire, provided assistance in 
September of 2004 to folks in Minnesota and provided assistance 
in April 2004 in Massachusetts for floods not unlike the 
conditions which our citizens faced in this case. And I see 
that it's significant precedent when you look at what happened 
in a Massachusetts flood with five to eight inches of rainfall, 
basements flooded to depths of excess of four feet; in New 
Hampshire, up to 11 inches of rain. There they had more time, 
over 36 hours, but they had a thousand people evacuated. Here 
we had 1400 that had been evacuated. They had 150 people in 
shelters. We've had dozens and folks were still in shelters.
    In Minnesota, 10 to 13 inches of rain, again a 36-hour 
period. In each one of those cases that I reference and this is 
based on a fairly quick review of some of the instances where 
FEMA has found that individual assistance program grants were 
made available, they are not unlike the conditions that our 
citizens had faced. And again, the difficulty I have as a Mayor 
is to look in the eyes of all of our citizens, knowing what 
we're facing from a budgetary standpoint each and every year as 
a Mayor, knowing what the State of Illinois is facing.
    I'd love to have the State of Illinois say hey, Mayor, 
we've got an individual assistance program, help us meet the 
gap of $5.5 million that we've got repairing these homes. But 
it's illegal. It doesn't exist.
    And so we are between the proverbial rock and a hard place. 
We're seeing other States get the funds. I'm led to believe 
that generally because Illinois is one of the big States, that 
we should be able to take care of it, but what do we do when 
again, we have a State that has no individual assistance 
program. We all pay federal taxes. We're seeing other States 
that get support in similar circumstances. What are we left to 
conclude as a result of this entire process if not again, the 
one hope we have is that the new information were available 
puts us in line with those other States to get support. 
Otherwise, I don't see any basis for a consistent series of 
opinions. It looks to be arbitrary and capricious. And I'd like 
some comment on that.
    Gen. D'Araujo. If I could, just a couple of things. I can't 
relate what you just said about the other States to this 
particular scenario. Off the top of my head, I can't tell you 
what the insurance coverage was. I can't tell you what the 
State, local and voluntary agencies' resources were that were 
brought to bear in those particular cases. There may be some 
very significant dissimilarities there. I don't know that.
    What I will tell you, getting to your point earlier in your 
statement that whatever new information and we've mentioned 
both to you and to the Chairman, whatever new information you 
have, that bears on the appeal will be considered in the light 
that you present. You have our assurance of that.
    I don't mean to speak for Mr. Buikema here, but he has your 
appeal package and we've heard what you've said. We're going to 
look at the information you give us and give it a fair 
assessment.
    Chairman Manzullo. Let me just be very frank with you. I've 
been a Member of Congress for 14 years. I have worked with 
virtually every agency in Washington. I have never worked with 
an agency as intransigent and as insensitive as FEMA. I'm just 
going to tell it right up front. I don't know what it is with 
you guys that you don't understand.
    We have worked through incredible EPA problems, Army Corps 
of Engineers. Mark Edwards is a very close friend of mine. He's 
the Commissioner at IRS. We have immediate access. We get 
answers. I mean advisory opinions, everything. We pick up the 
phone, the legislative counsel. But I've never run across an 
agency like this that's so incompetent. I'm just being very up 
front with you.
    This man from the State of Illinois has told you in his 
statement, it is against the law of the State of Illinois to 
give individual assistance like this. Mr. Buikema, you should 
have asked him what was available and you should have asked the 
Mayor what was available. And then you wouldn't have come up 
with a statement like this.
    I mean even in your own statement, General, you say that 
initially you had 40 homes that were damaged. Based on what I 
see here, 67 is low. We've got basements, we've got walls that 
are buckling and they won't know until spring. All you have to 
do is declare this a disaster. You come on in with your teams. 
You couple up with the SBA for those that can afford loans and 
you do the assessment property by property by property. Face by 
face by face by face by face, name by name by name by name by 
name. That's the only way to do it, to be fair to these people, 
after you know you have erred.
    I mean you know you've erred when you can't answer this 
question. That's not asking too much. How long is this appeal 
going to take? Can we have an answer in a week?
    (Applause.)
    I need to know. We need to have a timetable here. You have 
all the information you need now. How long is this going to 
take?
    Mr. Buikema. I can speak at the regional level, Mr. 
Chairman, that it is likely we will have our part of this 
wrapped up in a couple of days and then it will be sent off to 
Washington and I'll defer to General D'Araujo.
    Gen. D'Araujo. And I think once we get his assessment, 
barring any questions or comments or procedural things--
    Chairman Manzullo. Don't listen to the lawyers, all right? 
We're both lawyers also. Don't let them screw you up.
    If he can act in a couple of days, then you can probably--a 
couple of days after that.
    Gen. D'Araujo. We can probably do it in two or three days, 
barring anything untoward in the package we get from the 
region.
    Chairman Manzullo. The package.
    Gen. D'Araujo. The assessment from the region that will 
come to us.
    Chairman Manzullo. Now do you make your own independent 
findings of fact in addition to Mr. Buikema?
    Gen. D'Araujo. I'm sorry, sir?
    Chairman Manzullo. Do you making your own independent facts 
in addition to Mr. Buikema on the appeal?
    Gen. D'Araujo. The analysis and evaluation from the region 
is the basis for our review.
    Chairman Manzullo. What about this hearing? What if he 
misses something in this hearing? Would you take testimony in 
this hearing as part of the appeal process? I would trust so.
    Gen. D'Araujo. Any new information you bring in will be 
included.
    Chairman Manzullo. Anything in this hearing will be 
included. Okay.
    I have just a couple of questions. In the number of homes 
so far, we've got it about 67 with a lot of damage, what do you 
think? Do you think that's low now?
    Ms. Jaeger. We know it's low. We know that there are 
houses--Jennifer Jaeger, Community Services Director, Human 
Services Department for the City. We know that 67 is low. We 
went knocking on doors of people who don't speak English and we 
know those homes have severe damage, but they're not talking to 
us at this point.
    We know that people have damage that's showing up now. So 
yes, that number is low.
    Gen. D'Araujo. Congressman Manzullo, if I could make a 
couple other comments, if I could.
    One, whatever new information that is generated for the 
appeal, what the State would have to concur and submit to us--
    Chairman Manzullo. Oh, come on. Can't you take the 
testimony from these people? What do you want? It would take 
weeks to transcribe what's going on here? You mean to tell me 
you can't take this testimony as part of the appeal process?
    Gen. D'Araujo. Congressman, we can't do that without the 
State--
    Chairman Manzullo. Well, the State agrees. Dave?Just a 
second, just a second.
    Gen. D'Araujo. Congressman, we can't take across the 
country individual testimony. We deal with the State as the 
primary applicant.
    Chairman Manzullo. I understand. But we're the victims 
here.
    Gen. D'Araujo. I understand.
    Chairman Manzullo. Okay. I mean the Governor can't 
interview each of these people.
    Gen. D'Araujo. I understand.
    Chairman Manzullo. What do you want from the Governor? Do 
you want a statement? Do I have to get a letter saying listen 
to these people as part of the appeal?
    Gen. D'Araujo. We need from the State any new information--
    Chairman Manzullo. What do you mean from the State? What do 
you want?
    Gen. D'Araujo. We want an agreement that this is the 
information that they--
    Chairman Manzullo. This is the information here. Do you 
agree, Dave?
    Mr. Smith. I can agree that we all heard the same thing at 
the same time. I think that's important that we were all 
present for the information being provided. In all my years of 
disaster work and going through declarations, this is the first 
time we've had this forum as part of the appeal process and as 
far as the process goes to make a determination on a 
declaration. So I guess the question is one I've never had to 
face before, but I obtained information tonight and I believe 
FEMA obtained information tonight as did everybody here. So I'm 
not sure what else we need to do.
    Chairman Manzullo. I mean the question is will you 
consider, General, and Mr. Buikema, the testimony of these 
witnesses here tonight to be part of the appeal record? Will 
you take what they're saying into consideration when making 
your decision?
    Mr. Smith. I might add that one thing that is difficult is 
that I'm sure a lot of the individuals that made comments 
tonight, they're homes have already been included in the damage 
information. So to make a statement that this is all new 
information would not be correct, although there could be 
individuals that reported new information and in my testimony--
    Mr. Morrissey. What I'm going to ask for and I understand 
the formal process that the application and the appeal goes to 
the Governor's office. I guess what we will be following up 
with is just that asking the Governor to adopt the materials 
and the evidence that has been brought through tonight as part 
of our appeal, so that it could be formally submitted and 
adopted through the Governor's office.
    Mr. Smith. The State would certainly accept any additional 
information from the City of Rockford.
    Chairman Manzullo. This is the additional information. Do 
we have an agreement that--do you see, guys, what I've been 
working with? They thought your Congressman would play dead, 
that's what's going on here.
    (Applause.)
    Do we have an agreement that the testimony of these real 
live victims will be considered part of the appeal?
    Mr. Smith?
    Mr. Smith. I have to be able to transit it some way.
    Chairman Manzullo. Well, you heard it. Mr. Buikema, you're 
going to make a decision in Chicago, and General, you're going 
to make it in Washington. How do you transmit this? How long 
would it take to transcribe this Mr. Stenographer? What would 
it take, two to three weeks to get this typed? We don't have 
two weeks. You remember what you heard today.
    Mr. Buikema I can tell you, Congressman, I've had a couple 
of staffers that have been taking notes of what has been going 
on.
    Chairman Manzullo. So is it agreed, on the record, that the 
statements of the witnesses here tonight will be part of what 
is considered on appeal, yes or no.
    Mr. Buikema?
    Mr. Buikema. If they're incorporated--
    Chairman Manzullo. I'm incorporated as a Member of 
Congress, all right?
    Mr. Buikema. If they're incorporated into the process, Mr. 
Chairman.
    Chairman Manzullo. What do you mean by that? He's saying 
it's okay.
    Mr. Smith. What I'm saying is that we'll provide any 
information that we receive that comes from this hearing to 
FEMA to support--
    Chairman Manzullo. What are you going to provide?
    Mr. Smith. I have to have some sort of--if it's going to be 
a written document.
    Chairman Manzullo. You've heard with your own ears.
    Mr. Smith. Pardon me?
    Chairman Manzullo. General, are you going to make the 
decision, is that correct, in Washington? Ed, you're going to 
make it in Chicago.
    Gen. D'Araujo. The decision to do what, sir?
    Chairman Manzullo. On whether or not to sustain the 
decision or to reverse it.
    Gen. D'Araujo. We make a recommendation to the Director who 
makes--
    Chairman Manzullo. But you make the decision. You make the 
recommendation.
    Gen. D'Araujo. We make the recommendation.
    Chairman Manzullo. No, but you make the recommendation and 
he follows your recommendation.
    Gen. D'Araujo. Unless he disagrees.
    Chairman Manzullo. But he doesn't even know what's going 
on.
    Mr. Paulison has no clue what's going on here. I mean he's 
got a lot of disasters going on around this country. I mean I 
just want to get this very clear, because I'm not going to go 
through this again. Is the testimony of these people who showed 
up tonight going to be made part of what you consider when you 
decide whether or not to uphold the decision or to reverse the 
decision?
    Gen. D'Araujo. Congressman, to the extent that there's new 
information here that hasn't already been accommodated and it's 
documented and the State submits it to FEMA for--
    Chairman Manzullo. They're not going to submit anything to 
you. You've heard the testimony with your own ears. How could 
it be clearer than that?
    Gen. D'Araujo. As you well know, we have the process of the 
Stafford Act and the federal regulations that we have to live 
with.
    Chairman Manzullo. I'm also an attorney and a Member of 
Congress and I represent these people and I don't want to hear 
this B.S. coming from a bunch of bureaucrats.
    (Applause.)
    Why do you think these people are upset? Here's the 
question, this is so simple. You've come all the way from 
Washington. If you don't consider what they are going to say 
here, then you've misled me by coming out here and wasted your 
time tonight.
    (Applause.)
    Gen. D'Araujo. Congressman, I reiterate, for good, bad, or 
indifferent, we have a system that we need to work with.
    Chairman Manzullo. Your system stinks.
    Gen. D'Araujo. Perhaps--
    Chairman Manzullo. No, you don't. I'm an attorney. I've got 
a Doctor of Jurisprudence. I'm a Member of Congress. I oversee 
the SBA and what it did down in New Orleans. I met with the 
FEMA people on the ground in Baton Rouge at the Disaster 
Headquarters. This is no stranger to me. I know how this thing 
works. I know how the SBA filters, who gets the money, who does 
not. I know FEMA can subrogate to the insurance companies, that 
you can step in immediately and help these people and then you 
fight the insurance companies. That's what happened in New 
Orleans.
    You have the authority to do that.
    (Applause.)
    I'm not a stranger to the process. I understand it.
    Gen. D'Araujo. But it is the process within which we have 
to work.
    Chairman Manzullo. I'm telling you, I make the laws.
    Gen. D'Araujo. Congressman, I understand--
    Chairman Manzullo. Don't tell me the process. The question 
is very simple, are you going to take what these people have 
said tonight and make it part of your appeal process? That's so 
simple.
    Gen. D'Araujo. And the answer is not simple, because it has 
to be documented through the State--
    Chairman Manzullo. Here's the documentation. Maybe they 
should all go to Washington and sit in the office with Mr. 
Paulison. This lady is in a wheelchair. What more do you want? 
How can you document what she said? You can't. I can give you 
copies of the stenographer's tape. Would that work?
    (Unidentified audience members speak from unmiked locations 
simultaneously.)
    Mr. Morrissey. I've got a couple more questions I'd like to 
ask just about the process.
    I'll tell you what we will do in light of the statements 
that have been made to try to support--I don't write the rules 
in Congress. This process is foreign as much almost to me as it 
is to the citizens that are here. What we will do, however, as 
a City, to try to facilitate and provide a record from our own, 
frankly, which it wasn't reciprocated when we tried to get a 
record from FEMA as to the basis for its decision, vis-a-vis 
the first question we asked, which we didn't get a lot a basis 
for and it's been frustrating, but what we will do to try to 
support a record that can actually be documented and reviewed 
is ask that the stenographer make copies of the tapes at a 
minimum, so we can transmit those actual tapes themselves, if 
it can be done. And I ask the stenographer can that be done?
    How fast can we get duplicates of the tape? Okay, in three 
days, we'll get copies of those tapes. We'll ask the Governor 
to anoint and adopt and forward them on, so that they can 
follow the right procedure. And I understand what we've been 
asked to do on that. We'll do that.
    And we'll try to have again any additional documents, if 
they weren't part of our--in the appeal brief I think most of 
them were, but if they're not, we'll make sure we get an 
affidavit and get it supported and sent over to you with it, 
within those three-days time period so that you've got that for 
your consideration as documented and as referential as you need 
it to be.
    But beyond that, and again, I come back to a procedural 
question at this point, as long as we're on the topic. Here's 
what my question is. If a denial of our appeal is made, you 
know, remember from a law school class, every right needs a 
remedy. What's the remedy either of a city or of an individual 
citizen via the legal process, given that we've got an 
administrative determination, if any?
    Gen. D'Araujo. Mr. Mayor, I don't know what that remedy 
would be, to be very candid with you. I don't know the answer 
to your question.
    Mr. Morrissey. I'm somewhat familiar with some legal, our 
legal department do some work and we know there's been some 
cases brought against FEMA based on negative determinations and 
outcomes and I just would ask tonight if you know, is there any 
recommendation that you would make in that process or are you 
able to do that this evening?
    Gen. D'Araujo. Mr. Mayor, I can't answer your question. I 
would like to get back to you on that though, if we could.
    Mr. Morrissey. And in terms of those other states that I 
reference in which positive determinations have been made, are 
those referenced by FEMA when they're making a determination in 
terms of being consistent with precedent in a case like this? 
In other words, will you go back and look at those 
determinations to see if in this case--will your recommendation 
be based on an evaluation of what you've done?
    Gen. D'Araujo. You mean by comparison with other--
    Mr. Morrissey. Correct.
    Gen. D'Araujo. No. We don't do that. It's a stand alone 
evaluation based on the damages.
    Mr. Morrissey. In terms of that evaluation, is there a rule 
of thumb or any kind of written or unwritten rule regarding for 
lack of a better phrase, when you're considering a damage 
request, disaster request from a city like Rockford and we 
happen to be in quote a big State, is there some written or 
unwritten rules of thumb or guidelines that you follow when 
you're looking at a big State, population-wise as opposed to a 
different State, smaller State?
    Gen. D'Araujo. There's a general guide and as you know in 
the CFR there's a reference to the size of State. To that 
extent, but we don't compare one state against the other, no.
    Mr. Morrissey. I'd ask this question, is it a--when you've 
got a State like Illinois in which we have, we're told by the 
IEMA Department that we simply don't have an individual 
assistant program, is that counted for us, against us, is it 
considered at all?
    Gen. D'Araujo. Not that you have or don't have an 
individual assistance program is something we certainly urge 
every State to adopt. But no, it's not a process--you don't 
have an IA program so that counts against you, if I understand 
your question. No, it's not part of the evaluation.
    We work with the National Emergency Management Association 
and encourage States to do that more and more are doing.
    Mr. Morrissey. Assuming for a moment that our revised 
estimates are correct that there's at a minimum $5.5 million of 
claims that don't have--repair work that needs to be done to 
homes to make them habitable, are we to believe that there is a 
measurement that since we happen to be in the State of 
Illinois, considered a larger State, that $5.5 million of 
uncompensable insurance repair work claims, there's just simply 
no insurance to cover them, that it either is or isn't in a 
ballpark for getting assistance?
    Mr. Buikema. The $5.5 million is not the factor in terms of 
the ballpark that you mentioned, Mr. Mayor. The factors again, 
not to beat a dead horse, but it's back to the kind of things 
that General D'Araujo has previously brought up about how we--
the factors that are listed in the Code of Federal Regulations 
that decisions are made. So it's not $5.5 million.
    Mr. Morrissey. So hopefully that means that because we have 
a specific impoverished, elderly population with a high 
concentration of damage, those additional factors will be 
weighed in as positive characteristics in light of our request?
    Mr. Buikema. Those are all part of the considerations, yes, 
sir.
    Mr. Morrissey. And again, assuming that we have a higher 
population of impoverished and elderly folks without insurance 
in a particular targeted hit area, those factors generally 
would favor a positive determination as opposed to being a low 
poverty, high insurance covered area?
    Mr. Buikema. Again, all of this is not looked at in 
isolation, but in totality about all of those factors, sir.
    Mr. Morrissey. I understand that, but just as a basic 
statement, we're more likely to get a positive determination if 
we have a lot of poor people as opposed to a lot of rich people 
in the affected area?
    Mr. Buikema. Well, again, that's one factor.
    Mr. Morrissey. Absolutely, but in terms of looking at that 
factor, we're more likely to get a positive determination if 
we're impoverished as opposed to a very wealthy district?
    Mr. Buikema. I can't speak on a national basis, sir, about 
that with any definition about whether that's true or not.
    Maybe the General can answer that.
    Mr. Morrissey. I'm just trying to get a baseline to 
understand whether the information we're submitting is worthy 
anything. In other words, if we show the original assessment 
showed that we were perhaps had more money than our new data 
is, that data which shows that we've got a higher poverty rate, 
a higher rate of senior citizens, generally speaking, would 
weigh in favor of a positive determination. I'm not holding you 
to--I understand you look at a totality, but I'm just trying to 
understand if we're wasting our time. I don't want to waste the 
time of myself or any of our citizens here. We've gathered 
data. We believe that this data is going to be looked at in a 
positive light and I just want to know will it be--is it 
generally considered to be positive that we've got these higher 
figures of poverty and elderly and uninsured than originally 
submitted?
    Gen. D'Araujo. If it's new information, it would, yes.
    Mr. Morrissey. Okay.
    Gen. D'Araujo. But again, please understand, do not 
interpret that as we're going to look just that as a 
determining factor. We talked about this previously.
    Mr. Morrissey. I understand. And from a procedural 
standpoint, too, I'd like to know--I asked, because I know not 
everybody who would apply assuming we were to get a major 
disaster declaration, not everybody who would apply for the 
individual assistance grants would be eligible. They may make 
too much money, but they may be eligible for an SBA grant. I 
asked early on--I'm sorry, SBA loan, SBA loan.
    I asked early on in the process why do we have--while our 
determination is pending as to whether or not we may get a 
major disaster declaration, if we've already heard, which we 
have from the SBA that we would qualify for potentially for the 
SBA loan program, why couldn't we procedurally have started our 
citizens on that process earlier on and said what I've been 
told we have to wait until the entire process--
    Chairman Manzullo. Let me answer that. The way it works is 
that people go into one center and SBA does the filtering. SBA 
determines whether or not people can afford to make a loan 
payment. If they're turned down, then they're handed over to 
FEMA. That's the way it happened in New Orleans. And when I 
talked to Herb Mitchell who is in charge of disaster 
declarations, a very good friend of mine at SBA, he said Don, 
wait until FEMA decides what to do here, then we'll come in and 
open up one office so that nobody gets missed.
    But I can tell you right now, most of the people here can't 
afford to take out loans. I mean people here come from very, 
very low income backgrounds and a lot of these homes are not 
mansions they're living in. They're their mansions. The people 
here have very low incomes and the demographics show that 
they're way below the mean income for this region. And so 
Larry, that answers your question. That's how the two of them 
work together. But in all fairness to FEMA, we asked for an 
extension because FEMA refused to take the original figures of 
loss. We wanted to give you a total picture. You weren't 
interested in that. The only picture you wanted to know was 
what you could reimburse. And so therefore, you never got a 
total loss, a total picture of the entire loss and I'll tell 
you how far you were wrong. When Barrett Carr called me from 
the White House, and gave me the bad news, she said FEMA said 
that the damage is only about a $1 million. And at that point I 
knew that you guys had no clue in regards to the assessments 
that you had made.
    So that's how that works. Some people can get SBA loans, 
some can't. Based upon what I've heard tonight, I think very 
few people here, not even 4 percent, are going to be able to 
afford a loan on their homes and most would qualify for FEMA 
because of the area where they were located.
    Do you have any more questions? Okay. Well, we appreciate 
you making your trek all the way from Washington. I appreciate 
all of you for showing up tonight and this hearing is 
adjourned.
    (Whereupon, at 10:35 p.m., the hearing was concluded.)

    [GRAPHIC] [TIFF OMITTED] T1095.001
    
    [GRAPHIC] [TIFF OMITTED] T1095.002
    
    [GRAPHIC] [TIFF OMITTED] T1095.003
    
    [GRAPHIC] [TIFF OMITTED] T1095.004
    
    [GRAPHIC] [TIFF OMITTED] T1095.005
    
    [GRAPHIC] [TIFF OMITTED] T1095.006
    
    [GRAPHIC] [TIFF OMITTED] T1095.007
    
    [GRAPHIC] [TIFF OMITTED] T1095.008
    
    [GRAPHIC] [TIFF OMITTED] T1095.009
    
    [GRAPHIC] [TIFF OMITTED] T1095.010
    
    [GRAPHIC] [TIFF OMITTED] T1095.011
    
    [GRAPHIC] [TIFF OMITTED] T1095.012
    
    [GRAPHIC] [TIFF OMITTED] T1095.013
    
    [GRAPHIC] [TIFF OMITTED] T1095.014
    
    [GRAPHIC] [TIFF OMITTED] T1095.015
    
    [GRAPHIC] [TIFF OMITTED] T1095.016
    
    [GRAPHIC] [TIFF OMITTED] T1095.017
    
    [GRAPHIC] [TIFF OMITTED] T1095.018
    
    [GRAPHIC] [TIFF OMITTED] T1095.019
    
    [GRAPHIC] [TIFF OMITTED] T1095.020
    
    [GRAPHIC] [TIFF OMITTED] T1095.021
    
    [GRAPHIC] [TIFF OMITTED] T1095.022
    
    [GRAPHIC] [TIFF OMITTED] T1095.023
    
    [GRAPHIC] [TIFF OMITTED] T1095.024
    
    [GRAPHIC] [TIFF OMITTED] T1095.025
    
    [GRAPHIC] [TIFF OMITTED] T1095.026
    
    [GRAPHIC] [TIFF OMITTED] T1095.027
    
    [GRAPHIC] [TIFF OMITTED] T1095.028
    
    [GRAPHIC] [TIFF OMITTED] T1095.029
    
    [GRAPHIC] [TIFF OMITTED] T1095.030
    
    [GRAPHIC] [TIFF OMITTED] T1095.031
    
    [GRAPHIC] [TIFF OMITTED] T1095.032
    
    [GRAPHIC] [TIFF OMITTED] T1095.033
    
    [GRAPHIC] [TIFF OMITTED] T1095.034
    
    [GRAPHIC] [TIFF OMITTED] T1095.035
    
    [GRAPHIC] [TIFF OMITTED] T1095.036
    
    [GRAPHIC] [TIFF OMITTED] T1095.037
    
      

                                 <all>

</pre></body></html>
